<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                        WEDNESDAY, APRIL 3, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:45 a.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito, Murkowski, Hoeven, Lankford, 
Tester, Baldwin, and Manchin.

                    DEPARTMENT OF HOMELAND SECURITY

                  Federal Emergency Management Agency

STATEMENT OF HON. PETER GAYNOR, ACTING ADMINISTRATOR


           OPENING STATEMENT OF SENATOR SHELLEY MOORE CAPITO


    Senator Capito. Well, welcome. I apologize for being a 
little behind the times. We got lots going on at the same time 
today. So welcome to you.
    I call this hearing of the Subcommittee on Homeland 
Security to order. This is the subcommittee's second hearing in 
the fiscal year 2020 budget cycle, and we are reviewing the 
budget request for the Federal Emergency Management Agency, 
known as FEMA.
    We appreciate FEMA's Acting Administrator Peter Gaynor 
joining us today to help us better understand the important 
ongoing work of FEMA and how this year's budget request 
supports that work. This is Mr. Gaynor's first appearance 
before the subcommittee.
    As always, I am pleased to be seated next to my ranking 
member, Senator Testor, and I apologize to him for being a 
little behind here today. He and I are continuing our work 
together to review the 2020 fiscal year budget request for the 
entire Department of Homeland Security, and today's hearing is 
a very important piece of that work.
    FEMA's mission is helping people before, during, and after 
disasters. Acting Administrator Gaynor has a big job. We are 
all keeping a close eye on the flooding that is occurring right 
now in our heartland. We have also been following a recent 
string of devastating tornadoes across the Southeast, 
particularly in Alabama.
    Mr. Gaynor and the men and women of FEMA are at the tip of 
the spear when it comes to responding to these types of 
disasters. In fiscal year 2018, FEMA deployed 20,622 of its 
personnel, 4,053 surge capacity force personnel, and 373 FEMA 
core personnel to the disaster operations.
    As we will be reminded today, the men and women of FEMA 
perform a diverse and challenging array of duties, but when an 
area of our country is hit with tragedy, every FEMA employee is 
an emergency manager. You should consider this subcommittee 
part of your team.
    In addition to being ready and agile enough to respond to 
disasters as they pop up, FEMA is often charged with the 
complexities of coordinating the long-term recovery of U.S. 
States and territories that are hit with particularly 
catastrophic disasters. Many Americans might be shocked to know 
that FEMA is still doing important work to complete recovery 
from hurricanes that occurred well over a decade ago. We know 
that recovery from more recent hurricanes, Harvey, Irma, Maria, 
Florence, and Michael in particular, will not happen overnight. 
We should all hope that the areas affected can quickly recover 
to the point that assistance from the Federal Government is no 
longer needed there.
    We also ask FEMA to play an important role in helping 
communities prepare for and mitigate against future disasters. 
This means that the men and women of FEMA are engaged with 
State, local, tribal, and territorial partners every day to 
coordinate, plan, train, and build. The hope is that these 
investments will save American lives and taxpayer resources 
tomorrow.
    In fiscal year 2019, Senator Tester and I worked to ensure 
that the disaster relief fund, which is the primary tool that 
FEMA uses to help communities to respond and recover from 
disasters, had sufficient funding to meet present and future 
needs. The appropriations bill we worked to get enacted earlier 
this year provided more than $12 billion for the disaster 
relief fund. To put this number in perspective, in fiscal year 
2019, the disaster relief fund represented approximately 76 
percent of FEMA's total appropriation.
    The budget request for fiscal year 2020 includes more than 
$19 billion for the disaster relief fund, but it is my 
understanding that this estimate was formulated before the 
enactment of our 2019 bill. We look forward to working with Mr. 
Gaynor and his team to stay up to date on the revised funding 
level that will be necessary for fiscal year 2020.
    The work of this subcommittee has also led to historic 
investments in training, preparedness, and mitigation, and 
while we are pleased that this funding is enabling FEMA to 
invest in the resilience of American communities, it is 
important for us to better understand the specific return the 
American taxpayers are getting for this investment.
    We know FEMA is working to implement the Disaster Recovery 
Reform Act, which became law last year, and we look forward to 
working with FEMA to ensure that the changes made to mitigation 
grant programs by that law are implemented appropriately and 
responsibly.
    Finally, like most Federal agents, FEMA's efficient 
operations are dependent on modern technology. We note the 
budget request's emphasis on targeted investment in IT, system 
improvements, and we will continue our work to ensure that you 
have the tools you need to do your job well and make the 
greatest impact possible before, during, and after a disaster 
strikes.
    I see the impacts of FEMA in my State all the time, but 
most recently during our devastating flash flood in West 
Virginia in June of 2016. We lost 23 lives that day. Hundreds 
of homes were destroyed, and damages totaled millions and 
millions of dollars. Three years later, we remember those that 
we lost and recognize the ongoing efforts to rebuild. FEMA was 
there when the tragedy struck, and I will have to say FEMA was 
there within an incredible speed and they are still there now. 
I would like to thank your region 3 administrator specifically, 
MaryAnn Tierney, for her continued attention to the recovery. I 
see the importance of the follow-up, the communication, and the 
support that FEMA can provide.
    We still have much to do in West Virginia as a result of 
those floods. From community leaders, elected officials, 
volunteer organizations, and State government, our efforts need 
to continue in the most effective, efficient way. So thank you 
very much, given all the challenges you face, for continuing to 
make West Virginia families and communities a priority.
    Administrator Gaynor, thank you for appearing before us and 
ensuring that you and your team keep us up to date on what 
resources you need to continue the good work that you are 
doing.
    I will now turn to my follow ranking member, Senator 
Tester, for any opening remarks he may have before asking our 
witness to proceed with his testimony. Thank you.


                    STATEMENT OF SENATOR JOHN TESTER


    Senator Tester. Well, first of all, I want to thank you, 
Chairman Capito, for your great work and your leadership. And I 
know that we all have to have multiple personalities this time 
of year to be at multiple committees. So I appreciate your 
commitment to this subcommittee.
    Mr. Gaynor, I want to thank you for being here today to 
testify on your budget for 2020. You have got a big job, and I 
will start by commenting on the 2017-2018 disaster seasons. 
They were unprecedented. And FEMA will be dealing with recovery 
for years to come. A great deal of work lies ahead for those 
communities, and the Congress and the administration need stand 
behind you with those communities as they recover.
    FEMA resources will also be required to deal with more 
recent events such as the Western wildfires and the Midwestern 
floods. And looking forward, it is guaranteed that we are 
probably going to have more disasters in fiscal year 2020. I am 
convinced that if we invest in pre-disaster mitigation, we will 
save lives, we will save property, and we will spend less money 
on future disasters. The recent passage of the Disaster 
Recovery Reform Act allows for 6 percent of all disaster 
funding to be set aside for mitigation efforts. I want to 
discuss FEMA's implementation of this new law with you later 
today.
    Another important issue I will want to examine is the 
agency's ongoing efforts to modernize data management systems. 
FEMA cranks out billions of dollars each year to help State, 
tribal, and local communities prepare for recovery from 
disasters. FEMA also manages a significant amount of personal 
data on disaster victims. I was disappointed to learn that FEMA 
recently failed to protect 2.3 million disaster survivors' 
sensitive personal information, potentially putting them at 
risk for identity theft and fraud. We must ensure that FEMA has 
the resources it needs to operate systems that are fiscally 
transparent, data-driven, and protect personal information.
    Finally, the Federal Government shares a responsibility 
with State, tribal, and local governments to prepare for 
terrorist attack and catastrophic disasters. With that said, 
the President's request for preparedness grants is 20 percent 
below fiscal year 2019 enacted levels, impacting fire fighters, 
emergency managers, ports, transit systems, flood maps, and 
preparedness efforts across the country. We will want to hear 
today from you what your message is to the mayors and the 
governors across the country and why these cuts should be 
acceptable.
    Finally, I appreciate your attention to my letter asking 
for assistance as we monitor the spring flooding this year in 
Montana, and I look forward to working with you on this issue.
    I want to thank you again for your appearance today. I look 
forward to your testimony and the questions that will follow. 
Thank you very much.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    Now I will recognize our witness, Mr. Gaynor.


                 SUMMARY STATEMENT OF HON. PETER GAYNOR


    Mr. Gaynor. Good morning, Chairman Capito, Ranking Member 
Tester, and members of the subcommittee. My name is Pete Gaynor 
and I am the Acting Administrator of FEMA. On behalf of 
Secretary Nielsen and the administration, I would like to thank 
you for the opportunity to discuss FEMA's fiscal year 2020 
budget and how it supports the execution of the agency's 
strategic plan.
    Today, FEMA remains steadfast in its commitment to support 
the needs of disaster survivors. We continue to work tirelessly 
to support State, local, tribal, and territorial partners 
before, during, and after disasters. We have overcome many 
challenges and we gained invaluable knowledge, which we have 
incorporated into our strategy going forward.
    Today, I would like to discuss FEMA's budget in terms of 
the goals and objectives of the agency's strategic plan. This 
plan seeks to unify and further professionalize emergency 
management across the nation and helps drive both short-term 
and long-term funding decisions. The plan establishes three 
strategic goals for FEMA. First is to build a culture of 
preparedness; second, to ready the nation for catastrophic 
disasters; and finally, to reduce the complexity of FEMA.
    Every segment of our society, from individual to 
government, industry to philanthropy, must be encouraged and 
empowered to prepare for the inevitable impacts of future 
disasters. Building a culture of preparedness within our 
communities will allow the nation to significantly reduce risk 
before the next disaster. The budget requests $2.3 billion in 
preparedness and mitigation grants to help achieve that goal.
    In 2018, Congress took significant steps to support FEMA's 
efforts with the passage of the Disaster Recovery Reform Act, 
or DRRA. This transformational legislation will assist the 
nation in reducing risk and increasing preparedness in a more 
meaningful and tangible way. The budget request includes 
funding to begin implementing key mitigation-related elements 
of (DRRA) Disaster Recovery Reform Act of 2018.
    While we will never be able to eliminate all risks, we must 
reduce known risks as much as possible. FEMA continues to work 
with communities and insurers to close the insurance gap and 
double insurance coverage across the nation. Managing risk 
through insurance, including the National Flood Insurance 
Program, or NFIP, helps communities recover faster following 
disasters and reduces overall costs for taxpayers. The budget 
includes $5.1 billion to support operating the NFIP.
    FEMA's second goal is to ready the nation for catastrophic 
disasters. Catastrophic disasters include low- and no-notice 
incidents, and they can overwhelm government at all levels and 
threaten national security. They are life-altering incidents 
for those impacted and causing a high number of fatalities and 
widespread destruction. Focusing Federal efforts and resources 
on preparing for catastrophic events is critical to ensure that 
response and recovery missions are successfully executed.
    FEMA requests $14.1 billion for the disaster relief fund to 
support response and recovery operations.
    The budget request also includes $1.7 million for 25 
positions to support the expansion of the FEMA integration 
teams, or FIT teams. These teams, which are embedded full-time 
in State emergency management agencies, are critical to improve 
customer service and provide targeted technical assistance to 
help build capacity and address capability gaps before the next 
catastrophic disaster. Currently, FEMA has FIT teams embedded 
in 16 States with more to follow.
    Communications and prepositioned commodities are also 
critical to readying the nation. We saw this in Puerto Rico 
where FEMA deployed its mobile emergency response support 
resources with mobile satellite, radio, and logistics support 
services to provide command and control communications, 
situational awareness, and program delivery to overcome 
communication challenges. The budget includes $6 million for 
six more mobile emergency operations vehicles.
    Further building on lessons learned in 2017, the budget 
requests $3 million to expand the distribution center in Hawaii 
to increase the stocks of prepositioned lifesaving and life-
sustaining commodities maintained outside the continental U.S.
    The final goal of the agency's strategic plan is to reduce 
the complexity of FEMA. FEMA must be flexible and adaptable to 
meet the needs of individuals and communities, and it must 
deliver assistance as simply as possible. For example, FEMA is 
consolidating and updating all FEMA individual assistance 
policies and program guidance to streamline information about 
programs. FEMA is also reducing complexity by modernizing its 
legacy IT systems to better support grantees and survivors. The 
budget includes $77.6 million for these investments.
    The fiscal year 2020 President's budget provides FEMA with 
the resources to help people before, during, and after 
disasters while allowing us to strive for our vision of a 
prepared and more resilient nation.
    I want to thank you for this opportunity to testify, and I 
look forward to any questions the committee may have. Thank 
you, ma'am.
    [The statement follows:]
               PREPARED STATEMENT OF HON. PETER T. GAYNOR
                              INTRODUCTION
    Good morning, Chairman Capito, Ranking Member Tester, and Members 
of the Committee. My name is Peter Gaynor, and I am the Acting 
Administrator of the Federal Emergency Management Agency (FEMA). It is 
an honor to appear before you today to discuss FEMA's Fiscal Year 2020 
Budget and how it represents the strategic vision I intend to continue 
executing for this Agency and emergency management.
    The last time FEMA had the opportunity to testify before the Senate 
on the budget was in April of 2015. FEMA was a different agency then; 
at that time our greatest challenge was the 2005 Disaster Season, which 
included Hurricanes Katrina, Rita and Wilma. In the years since, we 
have matured as a professional organization. The past two years 
included six major hurricanes and five historic wildfires, and we 
continue to refine our business processes as we learn from each new 
disaster.
    As a result of the 2017 and 2018 disaster seasons, FEMA has 
experienced an unprecedented pace of operations. Between January 2017 
and December 2018, the President approved 143 major disaster and 
emergency declarations. Additionally, FEMA supported 191 Fire 
Management Assistance Grants (FMAGs). These two disaster seasons were 
significant in their devastation of life and property, as well as the 
costs to affected communities and taxpayers.
    Hurricanes Harvey, Irma, and Maria caused a combined $265 billion 
in damage and were each among the top five costliest hurricanes on 
record. In response, FEMA coordinated large deployments of federal 
personnel and commodities, both before and after the hurricanes' 
landfalls, to support response and initial recovery efforts across 
270,000 square miles. These deployments included more than 17,000 FEMA 
and federal Surge Capacity Force personnel, and nearly 17,000 personnel 
from various offices of the Department of Defense. FEMA facilitated 
logistics missions that moved more than $2 billion worth of commodities 
and supplies across several states and territories, using multiple 
modes of transportation. FEMA Urban Search and Rescue Task Forces, 
comprised of state and local emergency responders, saved or assisted 
nearly 9,500 lives across the three hurricanes. In total, the 
hurricanes and California wildfires affected more than 47 million 
people--nearly 15 percent of the nation's population. FEMA registered 
nearly 4.8 million households for assistance.
    Today, FEMA remains steadfast in its commitment to support the 
needs of disaster survivors. We continue to work tirelessly to support 
state, local, tribal, and territorial (SLTT) partners in responding to 
and recovering from disasters and mitigating against future risk. We 
overcame many challenges, and we have gained invaluable knowledge which 
we have incorporated into our strategy going forward. We continue to 
adapt and expand our understanding of emergency management to ensure 
that we can best deliver our services to support our partners' ability 
to build more resilient communities, lessen the impacts of disasters, 
and ultimately help individuals get back on their feet quickly.
                  FISCAL YEAR 2020 PRESIDENT'S BUDGET
    Today, I would like to discuss FEMA's fiscal year 2020 Budget in 
terms of the goals and objectives of the Agency's 2018-2022 Strategic 
Plan. FEMA developed this plan for supporting the Nation before, 
during, and after disasters and improving the Agency's execution of its 
fundamental mission of helping people during their greatest time of 
need. This plan seeks to unify and further professionalize emergency 
management across the Nation, and we encourage the whole community to 
join us in embracing these priorities. To do this and to drive both 
short and long-term funding decisions, the plan establishes three 
strategic goals for FEMA:

  --Build a culture of preparedness;

  --Ready the Nation for catastrophic disasters; and

  --Reduce the complexity of FEMA. Build a Culture of Preparedness

                    BUILD A CULTURE OF PREPAREDNESS
    The Nation's ability to weather storms and disasters without 
experiencing loss significantly reduces our risk. The most successful 
way to achieve disaster resilience is through preparedness, including 
mitigation.
    Building a Culture of Preparedness within our communities and our 
governments will support a National effort to be ready for the worst 
disasters. Everyone should be prepared when disaster strikes, and we 
must all understand our local and community risks, reflect the 
diversity of those we serve, and foster partnerships that allow us to 
connect with a diverse Nation. People who are prepared will be able to 
act quickly and decisively in the face of disasters, thereby preventing 
death and injuries, minimizing loss of property, and allowing for a 
more rapid and efficient recovery. When communities are impacted, they 
should ensure that they rebuild infrastructure better, tougher, and 
stronger to protect taxpayer investment and promote economic stability. 
The fiscal year 2020 Budget requests $2.3 billion in preparedness and 
mitigation grants to help achieve this goal.
    Also critical to these efforts is the Disaster Recovery Reform Act 
(DRRA), which the President signed into law on October 5, 2018. Key 
provisions in this law enable greater investment in pre-disaster 
mitigation; support efforts to reduce risks from future disasters after 
fires; increase state capacity to manage disaster recovery; and provide 
greater flexibility to survivors with disabilities. The fiscal year 
2020 Budget request includes funding to begin implementing key elements 
of DRRA to include earthquake related hazard planning and wildfire 
mitigation. Further, FEMA is working to implement the National Public 
Infrastructure Pre-disaster Mitigation Grant Program, which was 
authorized by DRRA and will provide a larger and more reliable source 
of funding for States to invest in pre-disaster mitigation projects. 
FEMA looks forward to continuing to work with our Federal, SLTT, and 
private sector partners as we continue work on implementing this 
legislation.
    While we will never be able to eliminate all risk, we must mitigate 
the known risks as much as possible. FEMA will work with communities 
and insurers to close the insurance gap across the nation and is 
working to double insurance coverage. Managing risk through insurance, 
including the National Flood Insurance Program (NFIP), helps 
communities to recover faster following disasters and reduces overall 
costs for taxpayers. The fiscal year 2020 Budget includes a request for 
$5.1 billion to support operating the NFIP.

              READY THE NATION FOR CATASTROPHIC DISASTERS

    Catastrophic disasters, including low- and no-notice incidents, can 
overwhelm the government at all levels and threaten National security. 
They are life-altering incidents for those impacted, causing a high 
number of fatalities and widespread destruction. Catastrophic disasters 
disrupt lives and hurt our communities--economically and socially. 
Readiness is critical for FEMA and our partners to ensure that the 
response and recovery missions are appropriately executed and 
successful.
    The Nation's readiness depends on emergency management 
professionals who execute the mission on behalf of Federal and SLTT 
governments. This requires a scalable and capable National incident 
workforce that can adapt and deploy to a changing risk landscape, 
greater integration with our partners at all levels, and the ability to 
communicate and coordinate effectively in every situation.
    In 2017, FEMA announced our intent to embed FEMA staff within SLTT 
partner offices to help provide a more coordinated FEMA presence to 
improve customer service and provide targeted technical assistance to 
help build capacity and address capability gaps. The first FEMA 
Integration Team (FIT) was placed in the North Carolina State Emergency 
Management Office in 2018. Prior to Hurricane Florence, the North 
Carolina FIT developed an understanding of the state's capabilities, 
gaps, and processes, and helped to develop and share potential needs. 
ecause of the team's proximity and co-location, the FIT began incident 
preparations for Hurricane Florence much sooner and with a better 
understanding of issues, prior to landfall. Currently, FEMA has FITs 
embedded in 16 states with more to follow. The fiscal year 2020 Budget 
request includes $1.7 million and 25 positions to support the FIT 
initiative.
    To overcome communications challenges in Puerto Rico during and 
after Hurricane Maria, FEMA deployed its Mobile Emergency Response 
Support (MERS) resources with mobile satellite, mobile radio, and 
logistics support services to provide command and control 
communications, situational awareness, and program delivery. Building 
on lessons learned from FEMA's response to Hurricane Maria and other 
disasters, the fiscal year 2020 Budget request includes $6.0 million 
for the acquisition of six Mobile Emergency Office Vehicles (MEOV). 
MEOVs provide critical command and control capability in the field. 
MEOVs are the primary command and control platforms utilized to support 
all-hazards response.
    FEMA added more than 200 agencies to the list of state, local, 
territorial, and tribal authorities with access and ability to use the 
Integrated Public Alert and Warning System (IPAWS) to send emergency 
alerts and warnings to the public. We also provided technical alert and 
warning assistance and support to multiple state and local agencies 
including for wildfires in California and for hurricanes and volcanoes 
in Hawaii, and live public alert tests for the Navaho Nation. FEMA's 
fiscal year 2020 Budget request includes $9.6 million to modernize five 
IPAWS Primary Entry Point (PEP) Stations.
    The fiscal year 2020 Budget also includes a request for $3.0 
million to expand the distribution center in Hawaii to gain an 
additional 54,000 square feet to increase stock levels of pre-
positioned life- saving and life-sustaining commodities maintained in 
areas of operation outside the continental United States. FEMA's stock 
target for food in the State of Hawaii is being increased from 558,000 
meals to 3.81 million meals. Water stock targets are increasing from 
372,000 liters to a capacity of 5.71 million liters.
    In addition to building core capabilities in states and other 
jurisdictions, FEMA is improving response efforts through the 
stabilization of lifelines across critical infrastructure sectors. 
Lifelines provide indispensable services that enable the continuous 
operation of critical business and government functions during a 
response effort, and without prompt restoration would risk health, 
safety or national economic security. Solutions to stabilize lifelines, 
such as food, water, and sheltering, do not fit within a single 
construct (i.e. an Emergency Support Function [ESF] or Recovery Support 
Function), so we must provide cross-sector coordination to effectively 
stabilize critical lifelines. Focusing on these lifelines and related 
impacts will allow decision-makers to move rapidly and will better 
utilize limited resources to target towards the restoration of critical 
functions during response efforts.

                     REDUCE THE COMPLEXITY OF FEMA

    FEMA must be flexible and adaptable to meet the needs of 
individuals and communities, and it must deliver assistance and support 
in as simple a manner as possible. We must innovate and leverage new 
technology to reduce complexity, increase efficiency, and improve 
outcomes.
    Promoting simpler, less complex processes to streamline FEMA and 
the support FEMA provides to individuals and communities makes it 
easier for employees to do their work, and the Agency can better care 
for those supported. A simplified FEMA--one that streamlines survivor 
and grantee experiences and provides straightforward process and 
policies for staff--will decrease administrative burdens, improve the 
stewardship of Federal taxpayer dollars, and allow for a more efficient 
and effective execution of our mission. For example, FEMA is 
consolidating and updating all FEMA Individual Assistance (IA) policies 
and program guidance to simplify and streamline information about IA 
programs.
    FEMA also is reducing the complexity by modernizing its legacy 
Information Technology systems. The fiscal year 2020 Budget includes:

  --$42.1 million to modernize FEMA's grants management system.

  --$18.3 million for IT infrastructure to increase the security of 
        core IT business areas, improve resilient communications, 
        remediate cybersecurity vulnerabilities and replace critical 
        end-of-life infrastructure.

  --$9.1 million to modernize FEMAs enterprise data analytics 
        capability to enable FEMA to work smarter through data 
        analytics and ultimately deliver better outcomes for survivors 
        and communities.

  --$8.1 million to modernize FEMA's financial management system.

                               CONCLUSION
    The fiscal year 2020 President's Budget provides FEMA with the 
resources to help people before, during and after disasters while 
allowing us to strive for our vision of a prepared and more resilient 
Nation. Every disaster is unique with its own set of challenges, yet in 
the spirit of constant improvement, FEMA is exploring how to 
incentivize investments that reduce risk, including pre-disaster 
mitigation, and reduce disaster costs at all levels.
    FEMA's work continues to increase at a faster rate and our goals 
and initiatives were developed to match the demands placed on this 
agency. That said, the unprecedented pace of operations FEMA has 
experienced, and the improvements needed to respond to implement these 
goals and lessons learned has placed increased strains on FEMA's non-
disaster funding, and I look forward to working with Congress to ensure 
the men and women of FEMA are funded at the appropriate levels.
    Thank you again for the opportunity to speak with you and your 
continued support of FEMA and its vital mission. I look forward to 
answering your questions at this time.

    Senator Capito. Well, thank you, Mr. Gaynor.
    Yes, I will go ahead and begin questions. I want to get 
clarifications and talk about the disaster relief fund.

                       FEMA DISASTER RELIEF FUND

    The budget originally asked for $19.4 billion, but as I 
noted in my statement, we recently appropriated $12 billion for 
this purpose.
    I noticed in your statement you mentioned the figure $14.1 
billion. Is that an adjustment from what you saw us appropriate 
in fiscal year 2019?
    Mr. Gaynor. Yes, ma'am. The President's budget was $19.9 
billion. I think by the time we had input to it, we adjusted it 
to $14.1 billion, which is I think $2 billion over--there is 
some math in there to adjust it, but we think the $14.1 billion 
gives us enough in the DRF for this year to make sure we can 
manage all the disasters that we have and any disasters that we 
believe will come in the next fiscal year. So we have enough.
    Senator Capito. Okay. What is the current balance in that 
disaster relief fund?
    Mr. Gaynor. It is a little over $29 billion right now, 
ma'am.
    Senator Capito. So that is carried over from last year.
    Mr. Gaynor. Correct.
    Senator Capito. What is your level of confidence that this 
balance is sufficient to address all of our fiscal year 2019 
needs?
    Mr. Gaynor. I have a high level of confidence that it has 
all the resources in it to deal with the disasters that exist 
today and any disasters that we may face in the near future. I 
think if we see another 2017-2018 disaster season, that will 
change the dynamics of how much money is in the (DRF) Disaster 
Relief Fund, and we would have to talk about a supplemental if 
we had another 2017-2018 kind of season. But for right now, 
there is enough money in the DRF for us to run operations this 
fiscal year.
    Senator Capito. Okay. So I am just reiterating just for the 
record that $14.1 billion is your request in this budget then.
    Mr. Gaynor. Yes, ma'am.

                 AGRICULTURE AFFECTS OF MID-WEST FLOODS

    Senator Capito. Let us talk about the Midwest floods. 
Obviously, from the pictures that I have seen of Nebraska alone 
and Iowa are pretty staggering.
    What concerns you most about the situation, and can you 
characterize that disaster? Do you believe there is adequate 
funding in this disaster relief fund to be able to manage this?
    As I have heard my fellow Senators talk about the disaster, 
a lot of it is agriculture-based. It is livestock and crops. 
And I do not think FEMA covers that. If you could just talk a 
little bit about that.
    Mr. Gaynor. Yes, ma'am. We have been in constant contact I 
think even before the flooding in Nebraska actually happened 
with the State. I personally talked to Governor Ricketts a few 
times, both pre and post flooding. We have our region 8 
administrator that spent significant time up there post 
disaster to make sure that the State has everything they need.
    I think for Nebraska, they have not seen this level of 
flooding in 50 years. I think that is kind of their view of how 
devastating this flooding is right now. Right now, the level of 
flooding has subsided and is generally stable. We are going 
into flooding season, so I am sure we will seek peaks and 
valleys when it comes to flooding.
    Right now, Nebraska has no unmet needs. We have all our 
Federal partners up there, to include Corps of Engineers and 
USDA, to make sure that we meet the requirements of the State 
and the governor's recovery plan. So when it comes to 
agriculture, USDA is responsible for that. Levees and river 
management is the Corps of Engineers. And we are up there as a 
team together, and we will stay connected as long as the State 
needs us up there and until the recovery is complete.

           ENVIROMENTAL ASSESSMENTS IN WV & IMPACT TO SCHOOLS

    Senator Capito. When you were in my office, I think we 
engaged in a conversation about--I mentioned the 2016 floods in 
West Virginia. We are having some issues with re-siting several 
of the schools, in particular Hoover and Clendenin Elementary 
and then two schools in Nicholas County. I have talked with 
MaryAnn Tierney more than a few times about this. I think it is 
reasonable to expect the community to get very impatient with 
the bureaucracies of acquiring property and all the 
environmental assessments.
    What can you say to a community that is now 3 years past 
the flood who are in temporaries? What kind of partnership can 
we expect for FEMA to move this along quicker? You just 
released $1 million last week for property acquisition. That 
was good news, but we need to move a little faster here.
    Mr. Gaynor. Yes, ma'am. I think generally recovery is never 
fast enough, especially for those that are impacted by 
disaster. We recognize that.
    When it comes to this particular issue, I actually talked 
to MaryAnn yesterday. I think we are on a glide path to a 
solution on some of these issues around environmental issues. I 
think we are in good shape, and she believes that we are going 
to resolve this quickly without any more bureaucratic 
roadblocks.
    I think part of why it goes slow, we want to make sure that 
we do it right up front. One of the things we want to avoid--
and having been a State director and having been a beneficiary 
of a Federal disaster, the last thing you want to do is have 
the Federal Government come back and ask you for money that you 
misspent, a claw-back as we call it. And we want to make sure 
that we avoid that. Sometimes that due diligence takes longer 
than people like, but it is in the best interest of FEMA, it is 
in the best interest of, in this case, the State, and I think 
it is in the best interest of the taxpayers. I think we will 
get to a resolution that we all can be proud of shortly.
    Senator Capito. Well, we have had more than a few bumps in 
the road on this recovery effort. Some I think at the State 
level have fallen short. But it is the stages of grief of a 
disaster, which you are well familiar with, when the community 
does not want their schools moved and then all of a sudden they 
realize the school is gone. We want to keep the school in our 
community, and in a shrinking environment, it is a daunting 
challenge. I know she is coming on Friday. I hope we can get 
some resolution, some good news for the community and for the 
school boards there. So I appreciate your work on that.
    And I am going to yield to Senator Tester.
    Senator Tester. Thank you, Madam Chair.
    Once again, thank you for being here, Mr. Gaynor.

   DISASTER RECOVERY REFORM ACT/BUILDING RESILENT INFRASTRUCTURE AND 
                              COMMUNITIES

    The Disaster Recovery Reform Act was enacted October 5th of 
last year. There are over 40 provisions giving FEMA new 
programs and authorities ranging from wildfire prevention to 
building code standards to post-disaster housing 
administration.
    Are you resourced to deal with these new requirements, and 
can you be specific on the shortcomings in the budget request?
    Mr. Gaynor. Yes, sir. Thank you.
    So like you said, we are working our way through the 49 
different sections of DRRA. Some are straightforward, some are 
more complicated. When it comes to pre-disaster mitigation, I 
think section 1234 about the 6 percent set-asides--we are 
working through that right now to make sure that we understand 
what a new program looks like. We just do not want to carbon 
copy an existing program and put it out there before we really 
understand what the pros and cons of the new act are. So we are 
working through that.
    There is some money in this budget to help seed personnel 
to make sure we can stand up a program, our goal for the 6 
percent set-aside program. We are calling it Building Resilient 
and Infrastructure Communities, BRIC. Our goal is by 2020 that 
we have the offer of opportunity out to communities and an 
application period and to get that money on the street. We 
think one of the greatest things we can do for the country is 
do pre-disaster mitigation with significant more money than we 
had in the past. I think if you look back at the existing 
program, we may have received $50 million a year appropriated. 
With DRRA, this 6 percent based on disasters may be as much as 
$400 million to $600 million a year, which is significantly 
more than our traditional pre-disaster mitigation. So we want 
to make sure we have a program that makes a difference and we 
can see great return on investment when it comes to risk and 
reduction of hazards.
    Senator Tester. And the budget supports you in that effort?
    Mr. Gaynor. It does. Again, I think we will uncover more 
costs of DRRA as we proceed, but we do not have a full picture 
on the entire costs of the act just yet.

              EMERGENCY MANAGEMENT PERFORMANCE GRANTS CUTS

    Senator Tester. Okay. And the fiscal year 2020 budget 
justification highlights emergency management performance 
grants as helping the States and territories achieve target 
levels of capability and catastrophic planning and emergency 
management. The program requires a 50 percent non-federal 
match, which increases the bang for the buck, ensures State and 
local governments plan wisely for known risks. It works.
    The National Emergency Management Association and the 
International Association of Emergency Managers reported that 
EMPG capabilities allowed over 23,000 events to be managed 
without additional federal expenditures in fiscal year 2018. 
This means that disaster relief funds were not needed for those 
events because the grant program invested--it cost a little 
over $1 per citizen.
    The budget request would cut EMPG grants by 21 percent. 
What impact is this going to have on emergency management 
capabilities across the nation if it were enacted--on a program 
that has been very successful?
    Mr. Gaynor. Yes, sir.
    A number of grants have existed since post-9/11. We have 
spent about $50 billion in preparedness grants since then on a 
number of different things. One of the challenges is that over 
time the grants lose their flexibility because more and more of 
the grants go to maintenance and sustainment, and it crowds out 
emerging threats and innovation. We believe that we have ceded 
a good portion of our capability throughout the State. This is 
a partnership where we would like to see States and locals with 
more skin in the game on disaster grants.
    And when it comes to the budget, we have finite resources, 
and we are trying to make really well informed decisions about 
what risk we are willing to take. And some of these grants--we 
cut them because we think the risk is acceptable. But again, as 
a former State director and local director, I know how 
important some of these grants can be. But now as the FEMA 
Acting Administrator, there are some risks and some 
capabilities that we just have to have.
    Senator Tester. Yes. And I guess the point I am trying to 
make here is 21 percent is pretty healthy. But if you do not 
need it, you do not need it. But this is a grant program that 
works pretty well. I am hearing you say that some of this money 
is used in a way that the program has not intended to use. Is 
that what I heard you say?
    Mr. Gaynor. Yes, sir. Again, I think in general terms, the 
grants really have not kept up with the changing threat, the 
changing environment. Some capabilities that we needed 10-12 
years ago--you would have to take a deep look to make sure that 
you still need that capability today. I think we would like to 
see the whole grant family shift a little bit more to keep up 
with the emerging threats that we see today. And there is a 
balance in that. But again, there are finite resources on all 
these things, and we are trying to make the best informed 
decision on all of these matters.
    Senator Tester. Yes. And as we talked in my office, it just 
appears that disasters are getting more regular, more common 
and many more of them. And so it does not make your job any 
easier.

           FUNDING OPPORTUNITIES: URBAN NEEDS VS RURAL NEEDS

    The recent passage of the DRRA act allows for 6 percent of 
all disaster spending to be set aside for mitigation efforts. 
This consistent funding provides an opportunity to do some real 
good things for resiliency. I understand FEMA is working out 
the details on how this program is going to be executed. I 
expect it to be agile and innovative.
    So the question is, how will you balance rural needs with 
urban needs in distributing funds?
    Mr. Gaynor. Can you say that one more time?
    Senator Tester. How will you balance rural needs with urban 
needs when it comes to distribution of funds?
    Mr. Gaynor. Yes, sir. So this grant, the BRIC grant, will 
be a competitive grant across the country, so everyone will 
have an equal opportunity to compete for mitigation money. I 
have seen some initial numbers of potential and the number of 
potential individual grants could be somewhere between 1,500 
and 2,000 individual grants. Again, it is competitive so the 
best projects come to the top. So I would encourage, no matter 
if you are urban or rural, to put a lot of effort into things 
that you want to touch and improve to be competitive in this 
process.
    Senator Tester. And do you have State, tribal, and local 
stakeholders at the table to make sure the program meets the 
needs?
    Mr. Gaynor. Yes, sir. Actually we met with State directors 
this past week on the program, and we have been soliciting 
input for a couple months now and we will continue to do that 
until the program is rolled out.

                    FEMA: STATE AND LOCAL ENGAGEMENT

    Senator Tester. Just one last point and it deals with what 
is going on in the Midwest. It was brought up by a question the 
chairwoman asked. I hope FEMA is in conversation with USDA when 
it comes to some of the losses with crops and animals. You guys 
may know stuff that they do not know, and by the way, they may 
know stuff that you do not know. And so I think if you can 
break down those silos, it will help you do your job.
    Mr. Gaynor. Yes, sir. One of the things we did for Nebraska 
is make sure that we had all the federal parties at the table, 
to include Corps of Engineers and USDA. So they are out there 
right now with us trying to solve these problems.
    Senator Tester. Good. Thank you.
    Mr. Gaynor. Thank you, sir.
    Senator Capito. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.

             FEMA RESPONSE TO NORTH DAKOTA REQUEST FOR PDM

    Administrator, on March 14th, I sent a letter to the 
regional administrator for FEMA region 8 on behalf of Rice Lake 
in North Dakota, near the community of Minot. They have had 
sustained flooding there, and they are undertaking mitigation 
efforts. And they want to use a pre-disaster mitigation grant 
that they received from FEMA to raise some of the lots around 
the lake as part of the flood protection plan. So the request 
to FEMA--and I will submit this letter for the record--is for 
FEMA to concur in their use of the pre-disaster mitigation 
funding for that plan.
    Mr. Gaynor. Yes, sir. I am not familiar with it, but I will 
have the staff check on it today and we will get a response on 
that.
    [The information follows:]

    Timely response to March 14, 2019 letter that went to FEMA Region 
VIII on a community near Minot that wants their plan to use fill 
approved by FEMA.
    Please see responses to Senator Hoeven, Senator Cramer, and 
Director of the North Dakota Department of Emergency Services, Cody 
Schulz from the FEMA Region VIII Administrator Lee K. dePalo.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Hoeven. They have got the grant, but they are going 
to use fill and they want to know that is okay. They do not 
want any ambiguity as to whether that is a qualified use for 
the funding. So I would ask for a timely and positive response 
to that letter.
    Mr. Gaynor. Yes, sir. I am not familiar with it, but I will 
have the staff check on it today and we will get a response on 
that.
    Senator Hoeven. Thanks for your help on that.

                     FLOOD INSURANCE/FEMA REMAPPING

    And, again, in the community of Minot, they had tremendous 
flooding in 2011. Four thousand homes were inundated, many 
businesses, a very severe flood on the Souris River.
    After that, we put together a plan for flood protection, 
about $1.2 billion, but knowing that we could not get it all 
funded at one time and that includes State, local, and Federal 
funding. We broke it up into eight phases. We had funding for 
the first four phases, and we are working for funding on phases 
five through eight.
    The reason I bring this up is you are remapping now as a 
result of that flood. You are in the process of remapping, and 
if that remapping is not properly coordinated with the 
construction of these phases, more people end up having to get 
flood insurance at higher rates. So I need your help, FEMA's 
help, to coordinate as we work to build that permanent flood 
protection with the remapping to try to minimize how much more 
people are going to have to pay in flood insurance costs, which 
could be a real burden. And particularly phases five through 
eight, you have got lower income areas in there, and they are 
going to be looking at increases in their flood insurance 
premium. So this is a very serious issue that we need you to 
work with us on to address, as well as possible.
    I will be out there in April with the Corps and other 
people, and I would like FEMA to come join us as well. Again, 
it is an effort to have all the agencies that are working 
together to build this permanent flood protection to 
coordinate, and I would think FEMA should be with us when we 
are out there in April working on this. And so I would ask that 
you have a representative join us for that.
    Mr. Gaynor. Yes, sir. You have my commitment that we will 
have the appropriate level of commitment and representative 
from FEMA out there to make sure it goes according to plan.
    [The information follows:]

    FEMA participated in the discussion in April on phases 5-8 of the 
Minot Flood Diversion Project. Mr. David Maurstad, Deputy Associate 
Administrator for Insurance and Mitigation and Mr. Ryan Pietramali, 
Risk Analysis Branch Chief for FEMA Region 8 attended the meeting.
    At the meeting, the United States Army Corps of Engineers signed 
the Chiefs report for phase 4 of the Minot Flood Diversion Project.
    During the meeting, FEMA discussed its Hazard Mitigation 
Assistance, including Pre-Disaster Mitigation (PDM), Flood Mitigation 
Assistance (FMA), and HMGP (Hazard Mitigation Grant
    Program) and the new Disaster Recovery Reform Act program, Building 
Resilient Infrastructure and Communities (BRIC). FEMA noted that North 
Dakota currently has no HMGP funds available, FMA and PDM are 
competitive programs; and BRIC has not yet issued a Notice of Funding 
Opportunity.
    FEMA also reiterated the importance of maintaining flood insurance 
regardless of the status of flood maps and that insurance is the 
primary means of recovery. FEMA will continue to work closely with the 
city on the flood maps and will coordinate any changes to those maps 
should portions of the flood control structure be completed.

         MITIGATION FUNDING OPPORTUNITIES FOR PRIOR YEAR FLOODS

    Senator Hoeven. Along those lines, as we work to put 
together a supplemental and we are all appropriators and we 
very much hope to get there. Right, Chairman, soon? Do you 
anticipate that HMGP funding and other funding that we are able 
to work on in the supplemental will be usable for some of these 
prior flood projects? Have you had any discussion on that? And 
what programs will be available for some of the permanent 
reconstruction that is needed? As you referenced a minute ago, 
in the Midwest you have got a lot of levees, dikes, dams, and 
so on and so forth that have sustained significant damage and 
are going to need repairs.
    So under your programs, will those funds only be available 
for 2018 and 2019 flooding, or will some of those dollars be 
available for some of these prior repairs that we need to make 
for prior floods or disasters that we still need to make?
    Mr. Gaynor. Yes, sir. A great question.
    I think that the cutoff date for DRRA pre-disaster 
mitigation is August the 17th. However, the current program, 
pre-disaster mitigation, PDM program, is still in effect.
    Senator Hoeven. I am sorry. Say that again.
    Mr. Gaynor. Pre-disaster mitigation program.
    Senator Hoeven. Yes.

                          BRIC IMPLEMENTATION

    Mr. Gaynor. That is still active today. There is money in 
that grant. There will be money in that grant next year as a 
bridge to what we are going to call BRIC. So, I mean, I do not 
know all the details of how they are mixing money.
    Senator Hoeven. Then one more time, the BRIC acronym stands 
for what?
    Mr. Gaynor. Building Resilient Infrastructure in 
Communities.
    Senator Hoeven. Excellent.
    And what is the funding level for that anticipated?
    Mr. Gaynor. We do not know exactly because it is based on 
disasters, but we think anywhere from $400 million to $600 
million in 2020.
    Senator Hoeven. And you will stand that up when?
    Mr. Gaynor. Probably October of 2020.
    Senator Hoeven. And that is all competitive grants as you 
were describing earlier.
    Mr. Gaynor. Yes, sir.
    But there is existing programs now that States and locals 
can use to do mitigation. And I would be happy to get with your 
staff on what is available to make sure that you do not miss 
out any opportunity.
    Senator Hoeven. Well, that is the other thing because we 
are piecing together all these different programs, not just 
from your agency, but others to try to make this flood 
protection work because with the Corps, you always have to make 
the benefit-cost ratio and sometimes that is a disqualifier for 
some of these projects. So we have got to put it together. And 
that is why we have broken this project into eight phases and 
why we need a whole bunch of different programs to get it all 
done. And the State and locals are stepping up too.
    Mr. Gaynor. Yes, sir.
    Senator Hoeven. But you are saying the existing pre-
mitigation disaster grant program would be the one to apply for 
rather than the BRIC or both?
    Mr. Gaynor. I mean, if you want to do it today, it is PDM. 
Come October 2020, it will be BRIC. But, again, I would be 
happy to help, send our experts out there to work out the 
details.
    Senator Hoeven. Yes. You anticipated exactly what I ask. 
That is what I want is your best person to help us figure that 
out to the extent FEMA can participate in this effort as a 
partner.
    [The information follows:]

    FEMA is committed to providing all potential applicants with equal 
access to program information, including application requirements and 
deadlines, and offered multiple training opportunities, both online and 
in person. FEMA holds all applicants to the same standards for 
application submission and review.

  --FEMA provides technical assistance year-round, 24/7 via email and 
        phone, including:

          --The Hazard Mitigation Assistance Helpdesk is available 24/7 
        via phone and email year-round.

  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92bfbfdadfd3d5e0f3fce6e1daf7fee2fefbfcf7d2f4f7fff3bcf6fae1bcf5fde4">[email&#160;protected]</a>

  --1-866-222-3580

          --The Benefit-Cost Analysis Helpdesk is available 24/7 via 
        phone and email year- round.

  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="daf7f7989992bfb6aab6b3b4bf9abcbfb7bbf4beb2a9f4bdb5ac">[email&#160;protected]</a>

  --1-855-540-6744

          --The eGrants Helpdesk is available 24/7 via phone and email 
        year-round.

  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b1616766f5e7c495a554f487b5d5e565a155f5348155c544d">[email&#160;protected]</a>

  --1-855-228-3362

    Reviewing Sub-applications is covered in the FEMA Mitigation 
eGrants System Applicant Quick Reference Guide and the MT eGrants 
Reviewing and Ranking Sub-applications Job Aid. Both are available at 
https://www.fema.gov/media-library/assets/documents/160596 and well 
publicized in the webinars.
    As an example, here is the outreach and support FEMA provided for 
the 2018 Pre-Disaster Mitigation (PDM) and Flood Mitigation Assistance 
(FMA) grant programs application cycle:

  --FEMA provided 12 technical assistance webinars from August--
        September 2018. Over 1100 individuals from across the country 
        attended these sessions, where FEMA covered the process for 
        submitting applications and reminded potential applicants about 
        the deadline for submission.

    Senator Hoeven. I would like FEMA to assist Region VIII in 
educating them on what funding is available (BRIC or PDM for 
example) to ensure they do not miss an opportunity.
    Mr. Gaynor. Absolutely, sir.
    Senator Hoeven. Thank you. I appreciate it.
    Mr. Gaynor. You are welcome, sir.
    Senator Capito. Senator Baldwin.
    Senator Baldwin. Thank you, Madam Chair.

 BUILDING RESILIENT INFRASTRUCTURE TO PROTECT FROM INCREASING OF STORMS

    As you have been hearing and as you well know, Wisconsin 
and much of the Midwest is facing intense flooding right now. 
And I will say Wisconsin regularly faces intense flooding. This 
endangers residents and it certainly strains commerce in the 
small communities across our region. We are seeing more intense 
storms, flash flooding, extreme weather events, and they are 
delivering greater and greater volumes of water in our State. 
And we are seeing that our infrastructure is not resilient in 
the face of these storms.
    Following floods this past summer and certainly at other 
times in the last couple of years, several communities in 
northern Wisconsin sought to rebuild with infrastructure, 
particularly culverts, that would be more storm resilient. In 
turn, that would reduce future reliance on FEMA funding and 
response to the flooding. But the communities found that they 
were unable to use the money that they were awarded for 
mitigation construction.
    I think when I see the heroic work of the first responders 
to the situation, which tend to be town governments and county 
governments, et cetera, there is a strong, strong desire to 
work directly with FEMA to create really community-specific 
resilient infrastructure, especially when those communities are 
seeing these extreme weather events over and over again.
    The BRIC, Building Resilient Infrastructure in Communities, 
program in the disaster relief fund is certainly an attempt to 
address this concern. But it is unclear--you already have been 
asked about this--how the BRIC funding will be distributed.
    So I want to sort of ask you a twofold question. One, how 
are you going to go about ensuring that infrastructure has the 
resiliency to outlast intense storms? And also, how will FEMA 
go about incorporating the opinions and recommendations of 
localities in identifying their needs so that we can get really 
region-specific and locality-specific?
    Mr. Gaynor. Yes, ma'am. Great questions.
    If I just use my experience as a local and a State 
emergency manager, those mitigation plans are driven by the 
locals and the State, and so most States have well developed 
mitigation plans that bubble up from the bottom to make sure 
that it is actually a plan. It is on the books and it can be 
used when funding becomes available, should you have a post-
disaster. And it is a living document because mitigation money 
can come from many different sources. So you have to have a 
plan. You have to have a way forward on how you are going to 
chip away at all those projects that you want to get at.
    When it comes to the new BRIC program, we want to be 
strategic, again in a general sense, about how we apply that 
money. We have a new concept at FEMA called Lifelines. So 
Lifelines. There are seven areas from safety and security, 
flood water and sheltering, health and medical, communications, 
transportation, hazardous waste, and energy. And so we want to 
make sure that these are the critical lifelines that should any 
of these lifelines be compromised during a disaster, it really 
impacts the community in a negative way.
    So what we would like to try to do is use this pre-disaster 
mitigation money to make those lifelines more resilient, build 
some redundancy in them, and again, let us pay the money up 
front before a disaster happens so we do not have to pay it 
post disaster. So we want to be smarter about how we use this 
money. And I think as we construct this program today, we are 
going to incorporate some of those concepts about how we would 
like to see locals and States apply that money so they build 
more resilient local or State communities.
    Senator Baldwin. So you are still very much in the process 
of putting together those guidelines, et cetera.
    I would like to request a sort of continuing briefing on 
this. I know we only get you in front of this panel 
periodically. But the sort of input that I think our local 
communities need in this process--it would be very helpful if I 
could get briefed by you or your staff on a frequent basis as 
this is stood up as a program, the BRIC program.
    Mr. Gaynor. Yes, ma'am. No problem.
    Senator Baldwin. Please provide periodic updates on BRIC 
development and implementation. Her focus is on local 
engagement and priorities/access to grant funding.
    [The information follows:]

    FEMA is committed to regularly engaging with our Congressional 
partners on the development of our new Building Resilience 
Infrastructure and Communities (BRIC) program. Currently, we provide 
updates on the BRIC program during quarterly briefings hosted by the 
Agency; as well as, through additional briefings and requests for 
information as they are made by our external partners.
    BRIC
  --Section 1234 of the Disaster Recovery Reform Act (DRRA) created the 
        program FEMA is calling the Building Resilient Infrastructure 
        and Communities program, or BRIC.
  --BRIC provides a game changing opportunity to transform FEMA's pre-
        disaster grant program by establishing a more reliable stream 
        of funding by leveraging a 6 percent set aside in the Disaster 
        Relief Fund of estimated disaster expenses from each major 
        disaster.
  --Our Program Team is working hard to develop options for how to 
        design the program--based on ongoing stakeholder feedback and 
        the team's experience with our other grant programs.
  --The Program Team is exploring how BRIC can encourage building code 
        efforts and help States and communities build capability to 
        respond to disasters.
  --The Program Team is also exploring how BRIC can encourage 
        community-wide mitigation of risk to lifelines and larger 
        infrastructure projects by researching the following 
        considerations:
          --Project types--The Program Team is actively looking at 
        different components which translate into mitigation projects, 
        but we expect to see a lot of innovation and co-benefits 
        surfacing.
          --Period of Performance--Due to the complexity and the amount 
        of time needed to both plan for and complete large 
        infrastructure projects, the standard Period of Performance is 
        under review.
          --Advance Assistance opportunities--The Program Team is 
        actively exploring options to make Advance Assistance more 
        supportive of large infrastructure lifeline efforts, keeping in 
        mind it may require additional up-front planning and 
        documentation than has been needed in the past.
          --Private sector ownership--The private sector plays a vital 
        role in the ownership, maintenance, and operation of many of 
        the lifelines. While grants cannot be given directly to private 
        for-profit organizations, FEMA needs to generate innovative 
        solutions and establish a partnership with these key 
        stakeholders for a resilient future.
          --New technical considerations--to retool our technical 
        procedures to ensure we're prepared to implement those types of 
        projects.
          --Technical assistance needs--to develop relevant materials 
        and technical assistance for our partners to support them in 
        submitting successful applications during the application 
        process.
          --Role of planning--FEMA will work in a joint effort with our 
        planning partners to determine how to incorporate planning 
        efforts in support of these types of projects, local land use 
        planning and how to better support BRIC applications.
          --Funding amounts and caps--Will leverage lessons learned 
        from the recent PDM program increased caps, from $4 million to 
        $10 million in support of the Resilient Infrastructure 
        Competition. This will inform how to support mitigation 
        projects that will truly move the needle on risk reduction.
          --Green infrastructure--In keeping with emerging trends, 
        leveraging green infrastructure as a mitigation strategy.
  --Over the next few years, HMA's focus will shift from the legacy PDM 
        program to BRIC.
          --For fiscal year 19, the legacy PDM program will be funded 
        at $250 million, with a Notice of Funding Opportunity (NOFO) 
        expected to be posted in August 2019 and an application period 
        from October 2019 to January 2020.
          --FEMA anticipates posting the first NOFO for BRIC in August 
        of 2020. The total amount available will be announced in the 
        NOFO.
          --BRIC is being designed to ensure continuous improvement as 
        the program evolves and evaluate outcomes, and any future 
        changes will be communicated through the NOFO and program 
        guidance.
  --While the Program Team has a lot of work ahead of them to design 
        and implement a grant program that meaningfully reduces risk 
        and supports our states and communities, FEMA is excited about 
        the enhancements that can be made to pre-disaster mitigation 
        funding to increase resilience across the full spectrum of 
        hazards.

                  FEMA: OTHER NEEDS ASSISTANCE PROGRAM

    Senator Baldwin. So I know I only have a little time left. 
I will assume that you are familiar with the role that FEMA's 
Other Needs Assistance, ONA, provision provides in repairing or 
replacing the tools that are necessary for one's trade or 
career.
    Mr. Gaynor. Yes, ma'am.
    Senator Baldwin. I think it is a wonderful program, and 
yet, unfortunately, the process for those who are self-
employed, who are independent workers, is very different from 
those who are employed at an ongoing enterprise. It is 
incredibly burdensome, and it actually requires them to 
navigate multiple agencies, including a need to confirm that 
they have been denied or not fully covered by the Small 
Business Administration. Other careers do not have to use the 
SBA as sort of a means test to enter into eligibility for the 
Other Needs Assistance program.
    My interest is getting people like plumbers, mechanics, and 
even local artists or musicians back to work as soon as 
possible so they can be providing for their families. And so I 
am wondering if you agree with me that replacing the tools that 
are absolutely necessary to one's primary income is important 
to the health and wellness of individuals and getting families 
back on their feet. And if so, can you work with us to simplify 
the extension of assistance to independent workers, self-
employed individuals?
    Mr. Gaynor. Yes, ma'am. I do not know all the details of 
that, but this goes to one of our third strategy goal is to 
reduce the complexity of FEMA. In some cases, ONA and others 
are complex. They may be simple to us as everyday users of 
them, but when it comes to a survivor, they can become complex. 
I will commit to you to look at some of those details and see 
if we can make it a little bit more straightforward.
    Senator Baldwin. And it is, as I was saying, not all within 
FEMA. So if you have to go to SBA and get a reject letter 
showing that whatever help was insufficient to get you back 
working again to replace your tools that allow you to have a 
living, we are going to have to work between agencies in order 
to make that happen.
    Mr. Gaynor. I will take a look into that and I will either 
brief you or your staff on where we are and how we can better 
deliver that resource to survivors.
    [The information follows:]

    FEMA's Individuals and Households Program (IHP) delivers assistance 
to individuals and households for necessary expenses and serious needs 
that cannot be met by any other means. Under the IHP Other Needs 
Assistance (ONA) provision individuals and households may receive 
financial assistance for other disaster-caused expenses and serious 
needs. Eligibility for some types of Other Needs Assistance is 
dependent on eligibility with the U.S. Small Business Administration's 
(SBA) disaster loan program. Per Title 44 Code of Federal 
RegulationsSec. 206.113(b)(9), FEMA does not provide IHP Assistance for 
damage to business property as the result of a disaster. FEMA directs 
self-employed individuals to the SBA for consideration of a disaster 
loan to recover business related losses. In accordance with Section 408 
of the Stafford Act and its accompanying regulations and policies, IHP 
only provides assistance to individuals and households for the repair 
or replacement of occupational tools when they are required as a 
condition of employment by a third-party employer, and eligible 
applicants have no other means to replace them.
    FEMA's Congressional and Intergovernmental Division (CIAD) will 
coordinate with Senator Baldwin's office for a follow up briefing.

    Senator Baldwin. Thank you.
    Senator Capito. Thank you. Senator Lankford.
    Senator Lankford. Thank you, Madam Chairman.

                        IG REPORT ON VEHICLE USE

    Let me ask just a couple quick questions. Before I do that, 
let me say thank you. You have jumped into a different chair in 
a hurry in this process. So we went through the confirmation 
process for you and then now you have taken on additional 
responsibilities. I appreciate your leadership and for stepping 
in and being able to take this on in a hurry.
    Based on some of the Inspector General report of some of 
the on-boarding for previous Administrator Brock Long, I wanted 
to make sure that your on-boarding is going well and that you 
are getting the information because the Inspector General noted 
that there were a few career staff that gave Mr. Long incorrect 
information at the very beginning and it led to a lot of stir 
in that process. So I want to make sure for you, your on-
boarding process is going well.
    Mr. Gaynor. Thank you, sir. I appreciate your support in 
the confirmation.
    Yes, the issue around vehicles has been resolved. Whatever 
the previous practice was, we stopped. We just actually hired a 
brand new continuity professional from DHS to help manage the 
entire portfolio of continuity. This is what the vehicles fall 
into. And we do not anticipate any bumps in the road when it 
comes to this issue.
    Senator Lankford. All right. That would be helpful for you 
and for the agency as a whole, obviously.

                      OPERATION STONEGARDEN GRANTS

    Let me talk to you about some of the grant operations 
there. Operation Stonegarden grants has been ongoing for a 
while. The Inspector General has taken a look at it and has 
asked some questions about just oversight responsibility, 
overtime pay, functioning, why it is in FEMA, why it is not in 
other areas. This deals specifically with border issues as 
well.
    Have you had any opportunity to be able to take a look at 
that and to be able to try to evaluate the Stonegarden grant 
program?
    Mr. Gaynor. I have not, sir. I do not know the details of 
it, but I would be happy to follow up with you or your staff on 
some of the issues you are concerned with.
    [The information follows:]

    The Operation Stonegarden (OPSG) grant program supports enhanced 
cooperation and coordination among U.S. Customs and Border Protection 
(CBP), United States Border Patrol (USBP), and Federal, state, tribal, 
territorial and law enforcement agencies. OPSG provides funding to 
support joint efforts to secure the United States' borders along routes 
of ingress from international borders to include travel corridors in 
states bordering Mexico and Canada as well as states and territories 
with international water borders.
    This program is managed by FEMA and is authorized and funded 
through the annual appropriations process. Under various U.S. 
Department of Homeland Security (DHS) appropriations acts, OPSG has 
received funding as a set aside within the Homeland Security Grant 
Program (HSGP), specifically from amounts designated for the State 
Homeland Security Grant Program (SHSP). Under the Homeland Security Act 
of 2002, the FEMA Administrator is given the authority to execute the 
HSGP, including SHSP, on behalf of the Secretary of Homeland Security. 
Further, as DHS's principal grant-making component, FEMA is well- 
positioned to manage the OPSG grant program, as we have the systems, 
staff, and resources necessary to manage the administrative mechanisms 
of the Federal grant-making process. FEMA administers OPSG in 
partnership with USBP and relies on USBP's expertise to provide funding 
allocation decisions and approve operational orders for each local 
agency that ultimately receives funds. The roles and responsibilities 
of both FEMA and USPB are outlined in the attached Memorandum of 
Understanding.
    As noted, OPSG directly supports security efforts at the Nation's 
borders. The FEMA Region VI border states of New Mexico and Texas are 
facing new challenges in border security operations, due to the 
substantial increase in migrant crossings and the need for immediate 
humanitarian assistance. In April 2019, FEMA's then-Acting Assistant 
Administrator for Grant Programs traveled to Arizona, New Mexico, and 
Texas to see the conditions on the border and to meet with USBP staff, 
state, tribal and local recipients of OPSG funds. There is a clear dire 
need for additional humanitarian assistance for both USBP and the 
border counties to support the number of people being processed through 
the individual USBP facilities.
    To address these emerging needs, FEMA has explored and will 
continue to explore ways to utilize OPSG funds to support border 
communities. To help address the current humanitarian assistance needs 
at the southwest border, FEMA recently worked with USBP to issue the 
attached grant Information Bulletins to expand or clarify allowable 
costs to include humanitarian aid and costs related to transportation 
and medical care:

  --FEMA Information Bulletin No. 436, ``Guidance for Use of Homeland 
        Security Grant Program Funds, including Operation Stonegarden 
        for Unaccompanied Children and Families on the Southwest 
        border,'' November 27, 2018

  --FEMA Information Bulletin No. 438, ``Guidance for Use of Operation 
        Stonegarden Funds for Small Unmanned Aircraft Systems and 
        Certain Costs Related to Transportation and Medical Care,'' 
        January 31, 2019

    FEMA and USBP work together to make continuous enhancements to OPSG 
based on congressional intent, stakeholder feedback, DHS and FEMA 
policies and priorities, and reports from oversight organizations such 
as DHS's Office of the Inspector General (OIG).
    On November 9, 2017, DHS's OIG issued a report of audit findings on 
FEMA and CBP oversight of OPSG (OIG-18-13, copy attached for 
reference). The OIG issued seven (7) recommendations, all of which have 
been satisfactorily resolved and closed. These were:

  --Improve oversight to ensure Stonegarden funds are used in 
        accordance with grant guidance and Federal laws by collecting 
        and maintaining financial information at the Stonegarden award 
        level. (Page 10, resolved and closed March 6, 2018, closure 
        details in attached document ``SOR--03--06--2018--OIG 18-13 
        Operation Stonegarden'')

  --Improve oversight to ensure Stonegarden funds are used in 
        accordance with grant guidance and Federal laws by designing 
        and implementing procedures to conduct additional monitoring of 
        Stonegarden SAAs to determine risk. (Page 10, resolved and 
        closed December 18, 2018, closure details in attached document 
        ``SOR--12--14--2018--OIG 18-13 Operation Stonegarden'')

  --Improve oversight to ensure Stonegarden funds are used in 
        accordance with grant guidance and Federal laws by designing 
        and implementing procedures to ensure Stonegarden grant awards 
        are monitored as part of the financial reviews mandated by the 
        Homeland Security Act of 2002, as amended. (Page 10, resolved 
        and closed December 18, 2018, closure details in attached 
        document ``SOR--12--14--2018--OIG 18-13 Operation 
        Stonegarden'')

  --Coordinate, consistent with the responsibilities outlined in the 
        March 2012 Stonegarden Memorandum of Agreement, with the Chief, 
        U.S. Border Patrol to improve and enforce program guidance by 
        addressing the risk of supplantation for overtime and equipment 
        costs. (Page 10, resolved and closed March 6, 2018, closure 
        details in attached document ``SOR--03--06--2018--OIG 18-13 
        Operation Stonegarden'')

  --Coordinate, consistent with the responsibilities outlined in the 
        March 2012 Stonegarden Memorandum of Agreement, with the Chief, 
        U.S. Border Patrol to improve and enforce program guidance by 
        establishing a restriction on the number of total hours 
        (regular and Stonegarden overtime) that may be worked within a 
        24-hour period. (Page 10, resolved and closed August 14, 2018, 
        closure details in attached document ``SOR--08--14--2018--OIG 
        18-13 Operation Stonegarden'')

  --Coordinate, consistent with the responsibilities outlined in the 
        March 2012 Stonegarden Memorandum of Agreement, with the Chief, 
        U.S. Border Patrol to improve program performance reporting and 
        measurement by designing, implementing, and enforcing 
        procedures to capture standardized performance data regarding 
        program output. (Page 10 resolved and closed March 6, 2018, 
        closure details in attached document ``SOR--03--06--2018--OIG 
        18-13 Operation Stonegarden'')

  --Coordinate, consistent with the responsibilities outlined in the 
        March 2012 Stonegarden Memorandum of Agreement, with the Chief, 
        U.S. Border Patrol to improve program performance reporting and 
        measurement by developing performance measures based on the 
        standardized data aligned with the program's objectives and 
        measure performance in terms of Stonegarden outputs or law 
        enforcement activities. This should include reporting, 
        tracking, and comparing such performance data over time. (Page 
        10, resolved and closed August 14, 2018, closure details in 
        attached document ``SOR--08--14--2018--OIG 18-13 Operation 
        Stonegarden'')

    FEMA and USBP continue to work closely to make the necessary 
program improvements and put processes and polices in place to improve 
OPSG. Feedback from local law enforcement on the Southwest border has 
been overwhelmingly positive to the Federal assistance provided to help 
them carry out their mission and work closely with USBP to provide 
enhanced border security for our Nation.

                      HOUSES OF WORSHIP ENGAGEMENT

    Senator Lankford. Let us follow up on that as well.
    The other one is an issue that Congress responded to 
previously that was a question that had hung out for years on 
houses of worship in FEMA and disaster relief. That had been an 
unanswered question for a long time where they are saying 
houses of worship could engage in that, could not engage in 
that. Congress obviously made that very clear to say absolutely 
they can.
    There seem to be some questions on just getting the 
paperwork and the process and the information out to the field. 
We have had a couple of synagogues, churches, others saying, 
hey, they are still not getting answers at this point.
    Do you know the status of that engagement or the 
instructions getting to the field for houses of worship?
    Mr. Gaynor. Yes, sir. And I will just use Puerto Rico as an 
example. I think we had already begun the disaster recovery for 
Puerto Rico, and then the rules changed on that. We had some 
inconsistent messaging, I think, once it was authorized for 
houses of worship to have disaster assistance. We have 
rectified that. We are working to make sure that any house of 
worship that requires disaster assistance, in accordance with 
the law, is able to apply. So we are working not only in Puerto 
Rico but across the country to make sure that we deliver that 
resource to those in need, to include houses of worship.
    Senator Lankford. The basic response of Congress was the 
houses of worship be treated like any other nonprofit, that we 
do not have a bias against them because of their faith, that 
they are treated equally and fairly the same.
    Mr. Gaynor. We agree, sir.
    Senator Lankford. So I appreciate your engagement on that.

             NATIONAL GUARD DRONES: USING DURING DISASTERS

    There have been some questions as well about National Guard 
drone use during disasters. Again, this has risen up to say 
that there are additional layers, that when there is a 
disaster, FEMA makes requests to the National Guard to be able 
to bring their drones out to be able to identify people that 
may be trapped in debris, whatever it may be.
    Is that process working out smoother for making the 
requests, and what is the bureaucratic red tape you have got to 
go through to be able to make those requests?
    Mr. Gaynor. Yes, sir. So what I know is that we 
successfully used National Guard drones in the California 
wildfires in Florence. This was a mission request. That 
typically happens through our Federal partners, in this case, 
the National Guard.
    I think we are still working out how we use them to our 
advantage as a Federal team to make sure that we use that 
technology to, again, speed response and speed recovery. So we 
have working groups right now within FEMA and with our partners 
to better understand how we can use drones more effectively for 
the American people.
    Senator Lankford. So my specific question is, though, on 
the speed of the requests and from the point of making the 
request to actually get a chance to be able to implement it. 
How is that process going? Because in a disaster, you cannot 
wait a week.
    Mr. Gaynor. I do not know of any issues where timing was an 
issue, but I will follow up to make sure that that is not an 
issue today.
    [The information follows:]

    FEMA has experienced no issues regarding the speed of acquiring 
National Guard Unmanned Aerial Systems (UAS), or drones, for disaster 
support.
    The actual process of requesting ``aerial imaging'' capabilities 
from the U.S. Department of Defense (DoD) requires submitting a 
Resource Request Form which is levied upon DoD as a Mission Assignment. 
FEMA does not request specific airborne platforms, e.g. U-2 manned 
aircraft, Predator UAS, or Shadow UAS, as we allow DoD to match our 
requirement with the best available asset. Should DoD determine that a 
state's Title-32 drones are the best platforms to support FEMA's 
request for aerial imaging, FEMA expects that DoD would expeditiously 
Federalize the drone team, secure appropriate DoD permissions, and 
direct them to deploy.
    In most cases, state National Guard officials aggressively employ 
drones on their own authorities, as delegated by SECDEF, without 
waiting on FEMA's suggestions, in support of Adjutant General and 
impacted state search and rescue and response requirements. We observed 
this in South Carolina during Hurricane Florence and during the 
California wildfires last season. During these scenarios, the state's 
costs for the employment of National Guard platforms may be eligible 
for reimbursement under the Stafford Act Declaration. As clarification 
of Mr. Gaynor's statement to the SAC, FEMA did not directly request 
National Guard drone support in either case, rather our analytical 
teams and decision makers leveraged National Guard-acquired drone video 
and derived information through an accredited and secure application 
sponsored by the National Guard Bureau.
    Over the past several years, FEMA has been able to receive, via 
Mission Assignments, similar aerial imaging support from DoD manned 
aircraft (Navy P-8 and EMARSS), DHS U.S Customs and Border Patrol 
(manned and unmanned aircraft), NASA manned aircraft, NOAA manned 
aircraft, and Civil Air Patrol/U.S. Air Force Auxiliary manned 
aircraft. We have also laid the groundwork to leverage Civil Air 
Patrol's small unmanned aerial systems (UAS) for disasters this season.

    Senator Lankford. Thank you.

                             DRF OVERSIGHT

    We will have ongoing questions just about oversight. It is 
the nature of this conversation to say we are all taking care 
of taxpayer dollars and efficiencies.
    Disaster relief funds--that request has gone up 
significantly in the past several years. We still have 
additional questions on how the oversight is going on that. Do 
you have plans to change the structure of oversight of those 
dollars and the transparency of how it is spent back to this 
committee?
    Mr. Gaynor. I do not know exactly about the oversight when 
it comes to DRF. Again, I think we treat it like every other 
tax dollar that we have. We have tight controls over all money, 
no matter if it is in the DRF or is just operating support 
money. I will check to see if there are additional controls 
that either need to be improved or added to make sure that we 
have high confidence in how we spend that money.
    [The information follows:]

    FEMA has a robust oversight structure in place to include internal 
control audits, a spend plan program for calculating disaster costs to 
include an annual spend rate with a high accuracy rate and multi-level 
controls on the review and approval of disaster allocation of funds. 
Additionally, in accordance with Congress' direction in the Directing 
Disaster Dollars to Relief Act, FEMA delivers the Disaster 
Administrative Cost Report to Congress.
    In addition, the Agency has consolidated a large portion of the 
processing of Public Assistance (PA) disaster grants into Consolidated 
Resource Centers (CRC). This model for more centralization of the 
process for validating, developing, reviewing and processing PA 
disaster grant applications serves all active/open declared disasters 
nationwide. This model provides a more stable internal control 
environment during the pre-award phase, more efficiently shares 
technical resources, and facilitates more standardization in 
development of awards.
    Most recently, to further improve oversight of disaster funding, 
FEMA has implemented a new process for incremental validation of 
disaster grant expenditures--Validate As You Go (VAYGo). This pilot 
program is applicable to Hurricanes Harvey, Irma and Maria and changes 
the structure of how we perform oversight for disaster grant 
expenditures down to the sub-recipient level. It's a statistically 
valid, risk-based approach of sampling documentation for expenditures 
on a quarterly basis. The early review of documentation for 
completeness and compliance will assist us in identifying and 
mitigating problems as they are identified early in the process instead 
of waiting until closeout, will recapture improper payments by 
leveraging existing IPERIA \1\ detection and corrective action 
processes, and promote expedited closeout with a reduced administrative 
burden on both the recipient and FEMA. FEMA will evaluate the 
effectiveness of this pilot program and determine whether it has 
improved the agency's oversight of how taxpayer dollars are spent on 
major disasters.
---------------------------------------------------------------------------
    \1\ Improper Payments Elimination and Recovery Improvement Act of 
2012, Public Law 112-248.

    Senator Lankford. So, Madam Chairman, let me yield back to 
allow some others to go since we are running close on time.
    Senator Capito. Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.

                  WEST VIRGINIA SCHOOL RECOVERY DELAY

    Thank you, sir, for the job you are doing and the job you 
jumped into. But having that frontline experience that you have 
had in the States is invaluable to see what happens and how it 
really gets pushed down the line.
    Senator Capito and I both, representing West Virginia, with 
the challenges we have had, we want to thank you for FEMA for 
always being there. We wish did not have to call on you but, 
sir, in all honesty it has been June 2016. And I know Senator 
Capito talked about the four schools. We have got four schools 
with kids living in temporary shelters, and we are going to 
have a complete class of high school, from 9th to 12th grade, 
not having a school to graduate from. And it is tough. It makes 
it very difficult.
    What we need probably from you is to tell us when all these 
tests are going on and all these Fish and Wildlife, how can we 
expedite this? How does it take so long to get a report from 
them? And can you help work with us and all of us working with 
you together collaboratively, make these and put those as a 
high priority? Right now, they do not seem to be.

                        OUTCOME-DRIVEN RECOVERY

    Mr. Gaynor. Yes, sir. I think one of the things that we 
have tried to do just in recovery in general is to embrace 
outcome-driven recovery, not the legacy recovery that we are 
all familiar with. And as an example of about how long it 
takes, we have 700 open disasters dating as far back as the 
year 2000. This past month, we are still paying bills on 
Katrina for a number of different project worksheets. Those 
project worksheets are not fixed costs. They are actual costs, 
and so there is no incentive to the local or to the State to 
make that thing go faster because the bill is going to be 
ultimately paid by FEMA. We embrace fixed costs where we all 
agree on a price of recovery--so a school costs X--how business 
is done in America. And we execute that.
    Senator Manchin. The only thing I would ask--you come from 
the front lines. Basically if it is a public building, 
especially schools, there should be a priority because if you 
are replacing a house, I do not have to have those type of 
environmental studies and everything else and species studies 
in order to rebuild that house. I just need to make sure the 
money flows so I can get that taken care of.
    You all have done a great job. And we have a lot of 
problems with HUD. We want to thank you. I think the Senator 
has asked for a meeting, which we are both going to attend on 
Friday. MaryAnn is going to be there I believe.
    Mr. Gaynor. Yes, sir.
    Senator Manchin. I think she is going to hear an earful, if 
you will.
    My main things is this. If FEMA put that as part of their 
plan to prioritize any public building, if schools are going to 
be your highest priority, to make sure that that has to have 
those studies done in a more timely fashion, put a timetable to 
it. If you need to--I mean, we hate to codify anything like 
that. You should be able to work that out. But 3 years I think 
you would say would be pretty unacceptable.
    Mr. Gaynor. Yes, sir.
    Senator Manchin. Tell us what we can do to help you and 
also, what we need to do. We have all these people calling and 
saying, well, FEMA is not doing this and it could be something 
in our own State that we are not doing well basically holding 
up the ability for you all to help us. We need to have that 
type of input also.

                           PUBLIC ASSISTANCE

    Mr. Gaynor. Yes, sir. I think one of the things, when it 
comes to public assistance category, is buildings. The Federal 
Government provides money to replace government buildings. And 
I will just use my own experience as a local director and a 
State director. I was always under the assumption that self-
insurance was insurance, that the local or the State had an 
insurance policy against its property. But what I realized is 
that self-insurance means no insurance.
    Senator Manchin. Self-insurance means they did not have to 
pay.
    Mr. Gaynor. Right. Again, from homes to businesses to State 
buildings, local buildings, insurance is really the best 
answer.
    And I will give you an example. If you were a survivor in 
any of the disasters this past year and you were looking for 
individual assistance from FEMA, the average check you would 
get from FEMA is somewhere less than $7,000. If you were a 
homeowner and the same issue, you were flooded out and if you 
have NFIP insurance, the average insurance payment was 
$116,000. So from my point of view, would I rather get a check 
from the insurance company for nearly all of the costs of my 
property, whether it is government or private, or would I 
rather get a check for something much less from the Federal 
Government?
    So our program does not really encourage these wise 
choices. So if we could work towards--and I know this does not 
help you in your moment in West Virginia, but I think the great 
problem is this insurance problem.

                      WEST VIRGINIA SCHOOL DELAYS

    Senator Manchin. Let us go back to the schools. The delay 
on the schools basically affects our funding, our percentage of 
90/10. We are not going to hit the 90/10. That has been strung 
out now. Until you expend, we do not get to that 90/10. Right?
    Mr. Gaynor. Yes, sir.
    Senator Manchin. So you see what it looks like? It is like 
double jeopardy to me. Maybe there is a purpose for that. 90/10 
would help us immensely, and we are still at 75/25 right now, 
but we can get into that with the expending of the schools 
being built. We think we are in that 90/10, and it makes a big 
difference in how we help people.
    Mr. Gaynor. I would be happy to follow up on some of the 
details of that. I know MaryAnn is going out this week.
    Senator Manchin. Whether she comes prepared for that to 
talk about that or not, I am concerned about the formula.
    Mr. Gaynor. Yes, sir.
    Senator Manchin. And the amount of time it has taken for us 
to get attention to what needs to be done. It should have been 
started. It also had a bigger effect on our formula. Okay?
    Mr. Gaynor. Yes, sir. We will follow up.
    Senator Manchin. Thank you.
    Senator Capito. Senator Murkowski.

                    STATE AND INDIVIDUAL ASSISTANCE

    Senator Murkowski. Thank you, Madam Chairman. I appreciate 
that, and I hopefully will be quick here.
    Mr. Gaynor, welcome. Thank you for your work, and thank you 
for your efforts as we responded to the earthquake in Alaska at 
the end of November. I appreciate your willingness to really 
drop everything that you were doing and be there with us in the 
aftermath of that trauma.
    As you know, we are still dealing with that trauma. In many 
ways, it was the disaster that happened and then was frozen in 
place. I was home over the weekend and spring thaw is starting 
to come, and people are now seeing damage that they were not 
able to see prior to because we just had so much snow that was 
on the ground. And so that is adding to, I think, the 
continuing stress of dealing with this particular disaster.
    I want to speak to what we are seeing as some of the 
frustration from folks as they deal with not only FEMA and the 
assistance programs but the State and the individual assistance 
program there.
    The individual assistance program there at FEMA, of course, 
is $34,000, but many Alaskans have come to understand that what 
they are seeing from the FEMA inspectors is a relatively low 
award. They are told that they can appeal, but frankly, they 
will not even know how their grant was calculated unless they 
take the initiative of asking for the inspector's report from 
FEMA by calling some call center that we are not really quite 
sure where that is.
    But we, of course, in our office get all of the calls 
coming in and individuals that are upset or frustrated. We have 
been talking with one individual whose estimates for repairs 
are between $220,000 and $400,000, which is far more than his 
current mortgage. He initially received $2,337 from FEMA. After 
two appeals, he has now received $6,000 total in FEMA aid.
    Another individual. Initial estimates to repair total 
$83,000. He originally received just shy of $3,000 from FEMA, 
and after appealing, he received an additional $1,900.
    What they are saying is, look, I am not asking for FEMA to 
repay the cost of my home. We know that. We know that FEMA is 
not designed to make you whole, and they are not seeking that. 
They are not asking for a Cadillac here, but they are asking 
for the ability to have it restored to safe and habitable 
condition.
    I met just yesterday with the representative from the State 
emergency management directors who are here in town, so I 
visited with him and we had an opportunity to discuss this. And 
what he was sharing with me was an analogy that, for instance, 
a plate glass window is broken by an earthquake, FEMA will not 
pay to replace the window. The will pay to board it up. And if 
a foundation is severely damaged, FEMA will give the homeowner 
some epoxy glue to help full the crack, but not provide the 
homeowner with a grant to have the home jacked up and have that 
foundation properly repaired in accordance with code and 
standards.
    And I think it is fair to say that most Alaskans did not 
anticipate this. Again, they did not anticipate that they were 
going to be made whole, but it is a question of what is kind of 
rational or reasonable in terms of expectations.
    And we have been working hard to try to manage expectations 
here, but I will tell you part of the problem is that it seems 
that this individual assistance program has kind of a black box 
reputation. Nobody really knows what is eligible for a home 
repair award. Nobody knows whether inspectors are consistent. 
The specific criteria that inspectors use is not readily 
available. Appeal decisions are not published.
    You indicate in your testimony, which I appreciate, that 
you are seeking to reduce the complexity of FEMA to promote 
simpler, less complex processes, to streamline it. That is 
good. But how do we let folks know that disaster victims can 
have confidence in this program that is being administered. Is 
it being administered as we intended it to? Help me out with 
this as it relates to what Alaskans are dealing with right now.
    Mr. Gaynor. Yes, ma'am. Thank you.
    I have had this exact conversation with Senator Sullivan 
last week. So I am well aware of some of the issues that you 
outlined.
    You said all the right words. This does not make you whole. 
FEMA is really a bridge from the disaster to something what we 
like to call is warm, safe, and secure or sanitary and secure. 
Our goal is to make sure we deliver the maximum benefit to all 
survivors. That is our goal.
    And I cannot argue with you. Sometimes it is complex and 
confusing. I want to thank the State of Alaska for having their 
own individual assistance program. I think that is a wonderful 
program. Not all States have that. Those two programs are 
similar in some cases and dissimilar in others. And so we are 
trying to work through how we complement each other as we work 
toward solutions.
    Senator Murkowski. I would like to explore that later with 
you. We obviously do not have time at this hearing. But that is 
something where there has been this general sense that Alaska 
is one of the few States that does have a State individual 
assistance program that we are actually penalized for it, and 
that because there is that offset from the State individual 
assistance that may come to that homeowner, you have a system 
that does not seem to mesh together. In fact, it not only does 
not mesh together, but again, some feel that we are penalized 
for trying to be prepared and resilient on our own.
    So much of what I have heard is this great frustration that 
you cannot access a level of the Federal resource unless you 
have moved first on the State side, and then that contradicts 
itself by saying, well, you cannot even access anything on the 
State side unless you have taken the steps to access the 
Federal support. So there is a great deal of confusion. There 
is a sense that, again, as a State who has tried to act 
independently, that we are somehow penalized.

      THE CONSEQUENCES OF HAVING AN INDIVIDUAL ASSISTANCE PROGRAM

    So I am not quite sure how we move forward with this, but I 
do not want this disaster to get behind us and we get busy with 
everything that we are doing, we do not really work to better 
integrate the system, learn from the lessons that we have seen 
from this particular disaster, and then the next one comes and 
other folks in another part of the country are equally 
frustrated because we have not worked to streamline that.
    Mr. Gaynor. Yes, ma'am.
    Since my phone call with Senator Sullivan last week, we 
actually took a deep dive into some of these issues that you 
have raised down to the individual level. We have reviewed some 
of them. This is really our first time with liquefaction 
issues, especially in Alaska and frozen ground. So there are 
some things that it looked like when we looked at it, and then 
obviously, as the ground thaws, it looks a lot different. So we 
realize that we have some learning level on this that we have 
to get our heads around.
    So we are going to make some adjustments to the program to 
make sure, again, we deliver the maximum disaster relief to 
survivors. So you have my commitment that we are going to try 
to simplify and make this less complex so we can deliver that 
disaster assistance to Alaskans that need it.
    Senator Murkowski. Well, I appreciate your commitment to 
that. I would ask that you work with us and the State's team. I 
think we have learned a great deal about this, and we can serve 
as a little bit of an expert. So do not work to address this in 
isolation, but let us be cooperating on this.
    I do appreciate the extension of time for which to file has 
been extended. I think that was an important recognition of the 
fact that we do have some very unique issues. Again, when a 
disaster has basically been frozen in place and then has impact 
months later, we cannot just cut off and say it was not 
apparent on November 30th. It does not exist because that is 
not our reality. So thank you for working with us on that.
    I have a whole series of questions that I will submit for 
the record. Some of them are questions that we have been asked 
to submit by the municipality of Anchorage. They go into some 
detail specifically as to whether or not earthquake insurance 
may be treated the same way as flood insurance, not that I look 
at the flood insurance program as a model of efficiency and 
something that works. But I think these are areas of questions 
that are worthwhile for us.

                        FOOD STOCKPILE IN ALASKA

    I also want to note that I am looking at the budget request 
that includes funding for the State of Hawaii for FEMA's stock 
target for food, recognizing that while Alaska is not an 
island, we are much in the same situation and would hope that 
we would also be seeing an opportunity to address food issues 
in the event of emergency in a stockpiled area in Alaska as 
well.
    Mr. Gaynor. Yes, ma'am. We do have a plan for Alaska 
warehousing.
    [The information follows:]

    The Federal Emergency Management Agency (FEMA) remains committed to 
working together with the state of Alaska to continue improving the 
delivery of Individual Assistance and reducing the complexity of FEMA.
    FEMA recognizes the unique issues and continues to provide support 
and flexibility in the delivery of recovery programs. For instance, 
FEMA approved a 60-day registration extension to ensure that affected 
applicants could apply for assistance for damage that could not be 
observed
    in pervious winter conditions. The registration period will now end 
on May 31, 2019 for all designated areas for Individual Assistance.
    Additionally, after reviewing multiple cases in Alaska, FEMA has 
identified that Individuals and Households Program awards for 
foundation-related damages tended to be much lower than contractor 
estimates due to the level of visibility of foundation damages and soil 
liquification (soil movement). To address this concern, FEMA evaluated 
current procedures and determined disaster-specific changes are 
warranted for this event. Applicants with foundation related damages 
are able to appeal the initial FEMA decision and may be eligible for 
additional funding based on a contractor's estimate.

    Senator Murkowski. Yes. We understand that. We look forward 
to that.
    Thank you, Madam Chairman.
    And thank you for the opportunity to question and, Mr. 
Gaynor, your responses. I look forward to working with you.
    Mr. Gaynor. Thank you, ma'am.
    Senator Capito. Thank you, Senator.
    This concludes today's hearing. Administrator Gaynor, we 
appreciate you appearing before our subcommittee and your 
candid answers.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 2 weeks from today. 
Senators may submit written questions for the record. We ask 
that the department respond to them within a reasonable amount 
of time.
          Questions Submitted by Senator Shelley Moore Capito
    Question. FEMA's Technical Hazards Division (THD) manages the 
Radiological Emergency Preparedness Program (REPP). The REP Program is 
partially funded by fees paid by the civilian nuclear power plants.
    What is the projected amount of REPP fees to be recovered in fiscal 
year 2020?
    Answer. The projected amount of the Radiological Emergency 
Preparedness Program (REPP) fees to be recovered in fiscal year 2020 is 
$34 million.
    Question. What cost control measures are in place to assure REPP 
fees are directly spent on activities associated with state and local 
emergency preparedness?
    Answer. Using established financial management practices and in 
coordination with internal budget organizations, the Federal Emergency 
Management Agency (FEMA) Technical Hazards Division (THD) manages 
program expenses in order to increase program efficiencies. FEMA THD 
oversees activities such as: quarterly in-progress reviews, periodic 
spend plan reviews, project management meetings and dedicated monthly 
budget meetings to measure progress against established annual targets 
and objectives. Through aggressive management oversight, THD compares 
actual results with the budgeted expectations and if actual costs are 
higher than planned, THD institutes the appropriate actions as 
required.
    As an additional measure, THD is working to have a neutral third 
party federally Funded Research and Development Center (FFRDC) conduct 
a financial review to ensure all REPP fees are used in accordance with 
authorization and appropriation statutory restrictions. The review will 
commence on or around July 2019.
    Question. In January, the Nuclear Energy Innovation and 
Modernization Act was signed into law. This law requires the Nuclear 
Regulatory Commission (NRC) to use a risk-informed framework for the 
licensing and oversight of advanced nuclear technologies. FEMA's 
Technical Hazards Division (THD) provides input to NRC's emergency 
preparedness guidelines. The Radiological Emergency Preparedness 
Program (REPP) coordinates planning, training, and support policies for 
State, local, and tribal governments to respond to, and recover from 
potential incidents involving commercial nuclear power plants.
    Does the REP Program currently consider risk in its civilian 
nuclear emergency planning program, such as the considerable reduction 
of risk from a plant that is no longer in operation?
    Answer. The REP Program considers risk along with the impact of 
decommissioned nuclear power plants. FEMA supports the concept of a 
gradual reduction of radiological emergency preparedness until all the 
spent fuel is moved to dry cask storage from the spent fuel pool. This 
gradual reduction should be commensurate with the risk posed by the 
radiological hazard, as well as considering the full threat spectrum to 
include Nation-State, cyber, and insider threats. Factoring the full 
threat spectrum into our risk calculations will ensure that advanced 
nuclear technologies and subsequent regulations and planning will 
address these concerns in a balanced fashion.
    Additionally, FEMA's Threat and Hazard Identification and Risk 
Assessment (THIRA) process supports the states, local, and tribal 
stakeholders in determining the risk of hazards to the health and 
safety of their public and providing adequate preparedness activities 
to mitigate those determined risks.
    Question. Will FEMA, through THD's management of the REP Program, 
develop a more risk-informed process for emergency planning and 
response to assure safer, advanced nuclear technologies can be 
deployed, without cumbersome and costly emergency preparedness 
requirements?
    Answer. FEMA continues to use risk-informed processes for emergency 
planning and response to include consideration of advanced nuclear 
technologies, as well as considering the capabilities needed to build 
resilience to risks posed by the full spectrum of threats. As small 
modular reactors and other new technologies are developed, the REP 
Program will continue to support a risk-informed approach that 
encompasses and integrates the full spectrum of threats to emergency 
preparedness to account for the unique nature of radiological incidents 
and associated emergency preparedness requirements. The REP Program is 
committed to engaging and collaborating closely with states, locals, 
tribal, Federal partners and the industry as rulemaking, policy and 
guidance are developed for these new technologies.
    The REP Program directly contributes to the ongoing health and 
safety of about one-third of the Nation's population that resides 
within the emergency planning zones of existing nuclear power plants. 
The benefits of preparedness programs in advance of disasters have 
shown overtime to mitigate the costly consequences of disasters should 
there be an incident. Any changes to the program, based on new and 
future technologies, would not be expected to be costly or cumbersome.
    FEMA's role is to assist communities in the building and 
sustainment of capabilities to prepare for, mitigate against, respond 
to and recover from radiological incidents involving nuclear power 
plants. FEMA reviews and assesses the adequacy of state and local 
Radiological Emergency Preparedness plans and capabilities and the 
ability to implement those plans following a radiological incident at a 
nuclear power plant impacting the surrounding community.
    Question. I remain concerned about the ongoing recovery from 
Hurricane Maria. I am pleased that FEMA is working with the 
Commonwealth to ensure we see a full and speedy recovery from the 
effects of one of the most devastating storms to ever hit American 
soil. It is my understanding that Puerto Rico is making use of the 
procedures allowed under Section 428 of the Stafford Act to speed 
recovery.
    Can you describe these alternative procedures and describe how they 
can benefit both FEMA and the applicant?
    Answer. On October 30, 2017, the Commonwealth of Puerto Rico 
elected to participate in alternative procedures for all large project 
funding for Public Assistance (PA) Categories C-G, pursuant to section 
428 of the Stafford Act, for permanent work following Hurricane Maria. 
Section 428 of the Stafford Act identifies these goals for the 
alternative procedures:

  --Reducing the costs to the Federal Government of providing public 
        assistance;

  --Increasing flexibility in the administration of such assistance;

  --Providing financial incentives and disincentives for timely and 
        cost-effective completion of projects with such assistance.

  --Beneficial use of excess funds for mitigation and other purposes

  --Flexibility to transfer underruns between or across projects

  --Fixed estimates supporting the budget process

    To achieve these goals, FEMA will work collaboratively with the 
Commonwealth to implement the alternative procedures which will:

  --Allow for making awards for permanent work projects on the basis of 
        fixed estimates to provide financial incentives and 
        disincentives for the timely or cost- effective completion of 
        work. The recipient or subrecipient is responsible for actual 
        costs that exceed the estimate.

  --Cost estimates for use in the development of fixed-cost subawards 
        can be developed after scopes of work have been agreed upon.

  --Once agreement is reached on the cost estimate for a project or 
        projects, FEMA, the recipient, and, if applicable, the 
        subrecipient, will sign a Fixed-Cost Estimate Agreement.

  --Allow Section 406 mitigation funds to be included in the fixed-cost 
        subaward if the recovery measures implemented include reduction 
        of risk from future similar damage.

  --Require a third-party independent expert panel to validate any 
        project with a cost estimate of $5 million or more, or at the 
        request of the recipient or subrecipient.

  --Eliminate the 10 percent funding reduction for alternate projects 
        under Sections 406(c)(1) and (2) of the Stafford Act.

  --Allow for the consolidation of funds associated with fixed-cost 
        subawards across all the facilities of a recipient or 
        subrecipient based upon the agreed-upon cost estimates.

  --Allow the recipient or subrecipient to use all or part of any 
        excess funds for cost- effective activities that reduce risk of 
        future damage, hardship or suffering from a major disaster, 
        and/or other activities that improve future Public Assistance 
        operations or planning.

    Question. When should we expect FEMA and Puerto Rico to reach 
agreement under these procedures?
    Answer. For 428 Alternative Procedures nationally, the deadline for 
developing fixed cost estimates is 12 months from the date of 
declaration. When FEMA and the Commonwealth agreed to 428 guidance 
specific to Puerto Rico, the deadline was established at 18 months from 
the signing of the guidance and 24 months from the date of declaration. 
The deadline for agreeing to fixed cost estimates is October 19, 2019. 
At the request of the Commonwealth, FEMA will evaluate extensions to 
the Fixed Cost Estimate deadline on a project-by-project basis.
    Question. Is there any reason an agreement might be delayed?
    Answer. Yes, should the two parties fail to come to a consensus on 
the scope of work or cost, the applicant has the right to appeal or 
pursue arbitration.
    Question. Can you give us an update on restoration of the power 
grid?
    Answer. On August 14, 2018, the Puerto Rico Electric and Power 
Authority (PREPA) reported that all feeders to its customers have been 
restored. Additionally, FEMA has obligated approximately $5 billion in 
emergency work as of May 20, 2019. The Puerto Rico Energy Sector is 
developing fixed costs estimates of eligible damages from Hurricanes 
Irma and Maria that will determine the size of the PREPA's Alternative 
Procedures fixed subgrant for power grid recovery. The deadline for 
completion is October 19, 2019.
    The updated Industry Standards for the Energy Sector were approved 
on May 9, 2019. Along with Architectural and Engineering (A/E) funds, 
the Industry Standards are vital to the design portion of the Power 
Grid recovery to move beyond concept and into reality.
    Question. What specific challenges and milestones remain for the 
restoration of the power grid?
    Answer. As of May 23, 2019, FEMA generator missions in Puerto Rico 
have closed. At peak response, FEMA had approximately 1,600 generators 
in place in Puerto Rico. As of June 13, 2019, only 1 remains at the 
Vieques CDT temporary facility.
    FEMA along with interagency Federal partners are developing an 
island wide Recovery Funding Plan, in coordination with COR3 and their 
Energy Grid Modernizing Plan. FEMAcontinues to work with the state on 
establishing the path forward for the restoration of the power grid.
    Regarding challenges, hurricane preparedness for the 2019 season 
remains a great concern. We are working to ensure FEMA's stock of 
generators on island is inventoried, maintained, and ready for response 
operations should an event occur. Despite large Federal investments to 
date, the Puerto Rico electrical system remains vulnerable to future 
storms due to remaining damage from Hurricane Maria, as well as a 
legacy of under-investment, poor maintenance, and insufficient 
vegetation management.
    FEMA continues to work with PREPA and the government of Puerto Rico 
to identify and prioritize investments in resilience for the power 
grid, including new generation, increased attention to vegetation 
management, repairs to critical substations, strategic hardening of 
transmission and distribution assets, modernization of communication 
and control systems, microgrids for critical services, and significant 
new workforce development efforts in conjunction with the University of 
Puerto Rico power systems engineering department.
    Question. Are there any other aspects of recovery from Hurricane 
Maria that you would like to share with the Subcommittee?
    Answer. FEMA is committed to supporting the Commonwealth in 
building its capacity to address the unprecedented level of disaster 
impacts caused by Hurricane Maria. This includes supporting the 
Commonwealth in building the significant level of staffing required to 
enable successful recovery operations.
    While FEMA continues to work closely with the Commonwealth on 
Hurricane Maria recovery efforts, we are also collaborating with 
officials at all levels on readiness planning for the upcoming 
hurricane season. This includes assessing incident management roles and 
responsibilities, resource availability and doctrine gaps.
    Question. It is striking to me that FEMA is still so involved in 
recovery from disasters that occurred more than a decade ago. It seems 
to me that we should all hope that FEMA can get in when disaster 
strikes, do its job thoroughly and quickly, and then get out of the 
way.
    What are some of the reasons that it takes years and years to close 
out many of these disasters?
    Answer. The primary reasons it takes years to closeout disasters 
include, but are not limited to:

  --Lack of personnel at the FEMA, recipient, and subrecipient levels 
        is one of the primary reasons disasters cannot be closed in a 
        timely manner. FEMA regulations stipulate that States account 
        for the work/cost associated with large projects to the 
        Regional Administrator; this requirement represents a heavy 
        lift for the recipients, negatively affecting timely closeout. 
        That said, we are aggressively addressing staffing needs 
        through numerous recruiting efforts (e.g., job fairs, etc.) in 
        an effort to strengthen and bolster our staff. Additionally, 
        implementation of the FEMA Integration Teams at the State level 
        is intended to assist with closure of aging events.

  --The type of an event (e.g., hurricane, earthquake, tornado, floods, 
        snowstorm, etc.) may affect the process of closeout depending 
        on the complexity of the projects.

  --The size of an event (i.e., catastrophic versus non-catastrophic) 
        may negatively impact the speed of closeout due to the sheer 
        volume of projects to be closed.

  --The frequency of events (i.e., same region, same state, same 
        disaster area repeatedly impacted by events, which prolongs the 
        closure of previous events) may affect a recipient and 
        subrecipients capacity to process closeout.

  --Special considerations (e.g., audits, appeals, historic/
        environmental requirements/assessments, insurance, etc.) delays 
        closure.

    Question. How do cost share requirements play into this?
    Answer. Normal cost share requirements are 75 percent Federal share 
and 25 percent recipient share. However, cost share adjustments can 
change the percentage of the share depending on the magnitude of the 
disaster and extent of damage delays disasters from closing. For 
example, if the Federal cost share is adjusted upward, while reducing 
the monetary impact on the recipient and subrecipient, it can have a 
negative effect on recipient and subrecipient performance. One hundred 
percent federally funded disasters may imply to recipients and sub-
recipients that they have no stake or role related to processing. As 
such, 100 percent federally funded disasters tend to generate more 
appeals when the recipient lacks a financial investment in the 
individual projects, thus impeding the speed of closeout.
    Question. How do the alternative procedures enabled by Section 428 
of the Stafford Act help address this issue?
    Answer. Under Section 428, FEMA remains actively engaged with an 
applicant until they have completed inspections, satisfied necessary 
environmental and historic preservation reviews and agreed on a scope 
of work and fixed cost estimate. After this time, FEMA's direct 
involvement with the applicant and project is limited to changes in 
scope of work.
    Question. If you weren't using your limited resources on closing 
out all of these old disasters, would it give you the ability to focus 
less on the crises of the past and more on the crises of the moment the 
future?
    Answer. Yes, if FEMA were not using limited resources on closing 
out old disasters, it would give us the ability to focus on other 
priorities and future disaster events.
    Question. What are some other specific actions that Congress should 
take--or not take--to shorten the time it takes for FEMA to complete 
its role in recovery?
    Answer. FEMA's role in recovery is to provide financial support for 
state and local government rebuilding and mitigation priorities. The 
time it takes state and local governments to develop these priorities, 
to develop plans for reconstruction and mitigation, and to execute the 
work at the project level account for the lengthy amount of time must 
be engaged in its financial support role. FEMA's authorities under the 
Stafford Act are sufficient for this supporting role. Language is 
included in Section 1221 of the Disaster Recovery Reform Act which 
speaks to FEMA creating ``incentives and penalties'' to encourage 
timely (regulatory driven timelines) submission of projects for closure 
to FEMA. FEMA is currently investigating opportunities for 
implementation.
    Question. Have we seen improvement in capacity at the state and 
local levels in recent years that might remove some of the long-term 
burden from FEMA?
    Answer. According to annual FEMA-administered self-assessments of 
their emergency management capabilities, states and territories have 
improved their capacity in some capabilities between 2012 and 2017, 
including fatality management services and public information and 
warning. However, over that same period, states and territories have 
also seen their capabilities stagnate or even regress in other areas 
critical to disaster response and recovery, including housing, economic 
recovery, and infrastructure systems. FEMA has consistently identified 
housing, economic recovery, and infrastructure systems as areas for 
improvement in the annual National Preparedness Report since 2012. The 
Federal government remains involved in these areas for extended periods 
because of the longer timeframes for establishing, sustaining, and 
recovering these capabilities.
    Improving state and local capabilities in these areas will make 
states and local communities more self-sufficient and resilient and 
allow them to assume a greater share of the responsibility for disaster 
response and recovery efforts more quickly. We are undertaking several 
efforts to help its state and local partners build and sustain their 
capabilities. For example, we have developed FEMA Integration Teams 
(FITs) to provide direct support within state, local, tribal, and 
territorial partner offices. Through the FIT program, state, local, 
tribal, and territorial partners benefit from on-the-ground subject 
matter expertise and technical assistance to build capacity, address 
gaps, build resilience, and ensure effective response and recovery 
operations.
    In 2018, FEMA also updated the annual risk and capability 
assessment that states and territories use to evaluate their emergency 
management capabilities. Tribes and urban areas will also now complete 
this assessment (previously they only completed the risk portion, not 
the capability portion). The updated assessment methodology, designed 
to be more intuitive and produce more actionable results, requires 
communities to take a more quantitative approach to measuring their 
preparedness, and to be more specific in estimating their current 
capabilities. The updated assessment is also able to capture smaller 
shifts in state and local capacity over time. States, territories, 
tribes, and urban areas will use the results of the assessment to 
prioritize and guide efforts to build and sustain their capabilities. 
FEMA will be able to use the results more effectively to track how 
those efforts are driving changes in capability over time, and work 
with Federal and community stakeholders to take a more data-driven 
approach to helping states, territories, tribes, and urban areas become 
more self-sufficient and resilient, and therefore less reliant on 
Federal support.
    This updated state-and territory-level risk and capability 
assessment methodology is part of the National Risk and Capability 
Assessment (NRCA), a suite of assessment products that will measure 
risk and capability across the Nation in a standardized and coordinated 
process. To meetthe requirements of Disaster Recovery Reform Act (DRRA) 
section 1242, FEMA is expanding the same process to the national level 
under the NRCA to assess risk and capability. FEMA is currently working 
with Federal interagency partners to establish national capability 
targets, which will set a baseline understanding of catastrophic 
incident requirements, that FEMA will assess against and identify 
national capability gaps. This assessment, once fully implemented, will 
eventually aid FEMA in communicating with state and territories what 
capabilities can (and cannot) be provided during catastrophic 
incidents.
    Question. Many of FEMA's preparedness programs are rightfully 
focused on large threats to urban areas, largely in response to the 
events of September 11.
    How has the threat landscape changed since 9/11 and how have we 
changed FEMA's preparedness programs to adapt to those changes?
    Answer. In implementing FEMA's various preparedness grant programs, 
FEMA follows the programs' authorizing statutes as well as each fiscal 
year's appropriations language. This includes the State Homeland 
Security Program (SHSP), Urban Area Security Initiative (UASI), and 
Tribal Homeland Security Grant Program (THSGP), authorized by the 
Homeland Security Act of 2002, as amended (Public Law No. 107-296); the 
Port Security Grant Program (PSGP), authorized by the Maritime 
Transportation Security Act of 2002, as amended (Public Law No. 107-
295); Transit Security Grant Program (TSGP), Intercity Bus Security 
Grant Program (IBSGP), and Intercity Passenger Rail (IPR), authorized 
by the Implementing Recommendations of the 9/11 Commission Act of 2007 
(Public Law No. 110-53); and the Emergency Management Performance Grant 
(EMPG), authorized by various statutes, including the Post-Katrina 
Emergency Management Reform Act of 2006, as amended (Public Law No. 
109-295). Per statutory requirements, FEMA conducts an annual risk 
assessment of the 100 most populous Metropolitan Statistical Areas and 
56 states and territories based on threat, vulnerability, and 
consequence data associated with a terrorist attack. The results of the 
risk assessment inform SHSP funding allocation decisions and inform 
UASI eligibility and funding allocation decisions.
    FEMA consistently reviews and investigates changes to all portions 
of the risk assessment in order to capture the diverse threat and risks 
seen throughout the nation. We work with Federal partners and 
incorporates feedback from state, local, tribal, and territorial 
jurisdictions to identify new and better datasets that support 
improvements in the risk assessment. In fiscal year 2018, for example, 
the risk assessment was updated to account for the emerging and more 
diffused threats against soft targets--specifically mass-gathering 
events and other locations where large crowds congregate. To better 
account for these threats, an additional ``Soft Target Index'' was 
added to the Vulnerability component of the risk formula. This index is 
comprised of two new data elements: visitor counts (which utilized 
domestic and international visitor data) and a special events metric 
(using Special Event Assessment Rating (SEAR) data from DHS Office of 
Operations Coordination). In addition, overall component weights were 
updated, with the Threat component reduced to 25 percent (from 30 
percent) and the Vulnerability component increased to 25 percent (from 
20 percent). The Consequence component remained at 50 percent. 
Previously, FEMA has made various changes to the risk assessment in 
response to the evolving U.S. terrorism risk landscape. These include 
changes to the methodology for the threat assessment; new datasets to 
better account for border crossings and international visitors; changes 
in weights for data elements; and a critical infrastructure element to 
better reflect the presence of targeted infrastructure.
    FEMA also updates and reissues the Notice of Funding Opportunity 
(NOFO) for each preparedness grant program on an annual basis. The 
updates are driven by FEMA's assessment of the threat environment and 
the latest national preparedness priorities. New requirements are often 
included in the NOFO to address the identified priorities. For example, 
recognizing the significant, ongoing cybersecurity threat, FEMA has 
prioritized cybersecurity investments, requiring a dedicated investment 
towards cybersecurity in both fiscal year 2018 and fiscal year 2019, 
and in fiscal year 2019 requiring all recipients and subrecipients of 
SHSP and UASI to take the Nationwide Cybersecurity Review (NSCR). This 
assessment is designed to measure gaps and capabilities of state, 
local, tribal, and territorial agencies' cybersecurity program and will 
help to improve the cybersecurity investments in future years.
    FEMA recognizes that the preparedness grant programs must evolve to 
meet the nation's shifting threat environment. However, changes to the 
existing preparedness grant programs are constrained by the authorizing 
statutes. The proposed National Priorities Security Grant Program will 
allow FEMA greater flexibility to address the dynamically changing 
threat environment by allowing applicants to apply for funding to 
address all-hazards capability gaps--not just those relating to 
terrorism. The key difference between the proposed program and current 
programs is that FEMA will establish a set of national priorities to 
drive investments that address emerging threats. The program would also 
be competitive, so only those investments that will most effectively 
buy-down risk will be funded. States will continue to use traditional 
funding sources to maintain existing preparedness capabilities. To 
ensure the program reflects the current threat landscape, the program's 
priorities will be assessed frequently and will shift as needed.
    In addition to preparedness grants, FEMA's preparedness programs 
have evolved to address several emerging threats. For example, in 
coordination with the Cybersecurity and Infrastructure Security Agency 
(CISA), FEMA offers several cyber training courses, exercises and 
guidance for State, Local, Tribal, and Territorial (SLTT) officials. In 
light of recent events, FEMA is also offering training, exercises and 
guidance for active shooter and complex attack events. These are a few 
examples of specific threats that are addressed, but it's important to 
point out that FEMA's preparedness programs address the core 
capabilities associated with a wide range of threats and hazards, 
regardless of the cause (i.e., capabilities-based planning).
    Question. What criteria and procedures are in place to ensure that 
more rural states like West Virginia and Montana receive appropriate 
preparedness assistance?
    Answer. The Homeland Security Act requires that a minimum amount of 
funding be directed to all 56 states and territories. Under SHSP, each 
of the 50 states, the District of Columbia, and Puerto Rico, must be 
allocated funds totaling at least 0.35 percent of the total funds 
appropriated for SHSP and the Urban Area Security Initiative (UASI), 
while American Samoa, the Commonwealth of the Northern Mariana Islands, 
Guam, and the Virgin Islands must each receive a SHSP award totaling at 
least 0.08 percent of the total combined funds appropriated for SHSP 
and UASI. The results of the risk assessment inform the decisions on 
how the remaining SHSP funds are allocated.
        In addition to SHSP, the Emergency Management Performance Grant 
        (EMPG) program provides significant preparedness assistance 
        funding to rural states. The purpose of the EMPG program is to 
        provide Federal funds to states to assist state, local, 
        territorial, and tribal governments in preparing for all 
        hazards. EMPG awards are based on section 662 of the Post-
        Katrina Emergency Management Reform Act of 2006, as amended, (6 
        U.S.C.Sec. 762). All 50 states, the District of Columbia, and 
        Puerto Rico receive a base amount of 0.75 percent of the total 
        available funding appropriated for the EMPG program. The 
        remaining balance of the funds are distributed on a population-
        share basis. Due to the 0.75 percent base amount, this 
        allocation formula actually benefits the less populous states.
    As part of the fiscal year 2018 risk assessment update, FEMA 
changed how it calculates the Population Index. The change introduced a 
cap on the densest 1 percent of census block groups in order to reduce 
the impact of high population densities resulting from concentrations 
of high-rise buildings and to better account for the current more-
diffused threat environment. This modification has benefited rural and 
lower-density jurisdictions.
    In addition to preparedness grants, FEMA offers technical 
assistance, training, and exercise support to all States and 
Territories, including rural areas.
    Question. When FEMA calculates risk for states that include UASI 
jurisdictions, is it ``double counting'' urban area risk by including 
that risk in calculations for both SHSGP and UASI?
    Answer. FEMA does factor urban area risk when calculating overall 
state risk. In allocating SHSP funding among states, the Administrator 
is required to ``consider for each State . . .  (1) its relative 
threat, vulnerability, and consequence from acts of terrorism . . .  
and (2) the anticipated effectiveness of the proposed use of the grant 
by the State . . . '' to prepare for acts of terrorism, to meet its 
core capabilities, and to otherwise reduce the overall risk to the 
State or the Nation.
    In accordance with the Homeland Security Act--and in order to 
properly compare the full relative threat, vulnerability, and 
consequence from acts of terrorism--FEMA must assess the relative risk 
to the entire state and not just a portion of the state. The heightened 
risk of terrorism associated with a UASI-funded urban area does not 
stop at the urban area's borders. The state and neighboring 
jurisdictions share in that risk burden. Including UASI-funded urban 
areas in the SHSP risk methodology helps to ensure that the state is 
receiving the resources necessary to build and sustain the preparedness 
capabilities required to address those risks.
    Question. The Disaster Recovery Reform Act, enacted last year, 
enabled significant changes to the Pre-disaster Mitigation program.
    Answer. Section 1234 of the Disaster Recovery Reform Act (DRRA) 
created the program called the Building Resilient Infrastructure and 
Communities program, or BRIC.
    Question. When can we expect the changes to the Pre-disaster 
Mitigation program to be fully implemented?
    Answer. For fiscal year 2019, the legacy pre-disaster mitigation 
program will be funded at $250 million, with a Notice of Funding 
Opportunity (NOFO) expected to be posted in August 2019 and an 
application period from October 2019 to January 2020.
    The application period for BRIC is anticipated to occur in October 
2020. The total amount available will be determined based on 6 percent 
of the previous year's Disaster Relief Fund requirements.
    BRIC is being designed to ensure continuous improvement as the 
program evolves, and any future changes will be communicated through a 
NOFO and program guidance.
    Question. How much do you expect to be available annually for Pre-
disaster Mitigation once these changes are in place?
    Answer. BRIC will leverage a 6 percent set aside mechanism based on 
annual Disaster Relief Fund expenditures (i.e., public assistance and 
individual assistance). Annual funding for BRIC will depend on how much 
disaster assistance is expended for each major Presidentially-declared 
disaster, and how many Presidentially-declared disasters the US 
experiences each year. Based on historical disaster expenditures, FEMA 
expects BRIC to receive $300-$500 million per year on average.
    Question. What are you doing to ensure that rural states can 
compete for these mitigation funds?
    Answer. There is an open comment period (https://
fema.ideascale.com) through July 15. Public comments are welcomed.
    Question. The budget request includes new funding to embed FEMA 
staff in state emergency management offices. You call these staff FEMA 
Integration Teams, or FIT teams.
    Can you give us an idea of how many states currently have FIT 
teams?
    Answer. Twenty-six states have signed Memorandum Of Agreements 
(MOAs) and 19 teams are currently embedded.
    Question. Does West Virginia have a FIT team? If not, do you know 
when we are scheduled to get one?
    Answer. West Virginia has a FIT, with an MOA signed in May of 2019.
    Question. Have you seen any positive results from imbedding your 
employees directly with states?
    Answer. Below are a few examples of some positive results from 
FITs:

  --A top priority for the FITs is to understand the state and its 
        resources, allowing them to activate faster during an 
        emergency. FIT developed an understanding of North Carolina's 
        capabilities, gaps, and processes prior to Hurricane Florence 
        and helped to develop and share potential needs with FEMA 
        Region IV. In North Carolina, the FIT began incident 
        preparations and discussion early due to team's proximity and 
        co-location. Planning and preparation efforts began one week 
        prior to hurricane impact (three days prior to regional/
        national assets arriving). The FIT worked with the Incidence 
        Management Assistance Team from Region IV as well as the 
        National Incident Management Assistance Team to assist them 
        with their planning and state and Federal coordination. By 
        being able to integrate the various components of the state 
        emergency management offices with the many components of FEMA, 
        the FIT was able to provide new ways to help facilitate 
        response and recovery for our states and communities. Our 
        Response Planner was deployed to the city of Kinston on the 
        Neuse River at one of the state's regional coordination centers 
        before Florence came ashore. He said his knowledge of the local 
        geography, personnel and processes helped once the storm 
        struck.

  --Rhode Island is not an emergency preparedness zone (EPZ) state for 
        the Radiological Emergency Preparedness Program (REPP), but 
        they are an ingestion path state. The FIT Preparedness 
        Specialist had REPP experience and coordinated with the state 
        to review its annual letter of certification, provide feedback, 
        and help identify actions the state had performed that would 
        provide a better and more complete response. This was the best 
        annual letter of certification received by the Region in terms 
        of quality and accuracy of validated information. This improved 
        submission enabled a timelier completion of the Certification 
        Letter than in prior years.

  --The Virginia FIT clarified the Commonwealth's use of U.S. 
        Department of Defense (DoD) assets for immediate disaster 
        response and the Commonwealth is now incorporating immediate 
        disaster response into local plans prior to a disaster. This 
        will allow local governments to use DoD resources to help fill 
        local capability gaps immediately following a disaster, so 
        those jurisdictions can direct their resources to other 
        immediate priorities.

    Question. Do FIT teams help states just during disasters, or can 
they help build future response capacity, assist with long term 
recovery, and help states think about mitigation strategies?
    Answer. Having FIT co-located with participating partners will 
enhance customer experience, build more resilient communities (to 
include mitigation), and ensure more effective response and recovery 
operations before, during, and after an incident. FITs are an extension 
of the Region and having a FIT co-located with state partners helps to 
provide more direct, frequent and tailored technical assistance by 
building lasting relationships and networks via stronger communication 
and while enhancing the Nation's overall shared readiness.
    Question. What steps are you taking to make sure these teams are 
complementary to, and not duplicative of, what states are doing?
    Answer. The goal of the FIT is to address capability gaps 
identified by FEMA and the states so that states are better prepared 
during a disaster and require less Federal support; it is not an effort 
to supplement; but rather support state missions or activities. 
Capacity building through FIT is intended to build capacity and 
capability in areas where the state has identified a need and priority 
(through their annual capability assessment). To agree upon and 
determine FIT composition and services, FEMA Regional Administrators 
and partner leadership will conduct extensive dialogue to jointly 
identify tailored support and mutually-agreeable technical assistance 
needs and outcomes. Use of sources such as the Stakeholder Preparedness 
Reviews, formerly known as the State Preparedness Report (SPR), Threat 
and Hazard Identification and Risk Assessments (THIRA), after action 
reports, grant and audit findings, and other assessments should inform 
the type and amount of FIT support. Signed Memorandum of Agreements 
(MOAs) between FEMA and the SLTT partners define the capacity building 
activities through the FIT and reduce risk of FIT members performing 
state-based activities.
    Question. Over the last two fiscal years, this Subcommittee has 
spearheaded an effort to invest significant resources in mapping flood 
risk using Light Detection and Ranging technology, or LIDAR.
    Can you talk about the importance of this effort for understanding 
flood risk? What percentage of the country have you mapped or are you 
going to map with this investment? Do these investments over the last 2 
years provide a new baseline for flood mapping and should we turn our 
attention to sustainment of these maps?
    Answer. FEMA has invested in updating elevation data, which are 
fundamental for flood mapping and understanding flood risk, for many 
years. The Agency has worked collaboratively with Federal, state, 
local, tribal and territorial (SLTT) partners to leverage existing 
information, build partnerships for mapping, and prevent duplicative 
mapping activities. In 2000, FEMA helped establish the National Digital 
Elevation Program to coordinate Federal agency elevation mapping 
activities. We have worked with the USGS to evolve this multiagency 
collaboration in the Three-Dimensional Elevation Program (3DEP). These 
Federal and SLTT partnerships will continue to be essential for FEMA to 
acquire the elevation data needed for cost-effective flood mapping and 
to maintain a national asset of accurate elevation data.
    FEMA has invested over $190 million in the 3DEP over the past 5 
years, including the largest investment to date in 2018. These data 
have been critical to FEMA's ability to stay on track toward our goals 
to deliver and use reliable flood hazard data nationally to drive 
actions to reduce risk. Investments in Light Detection and Ranging 
(LIDAR) in 2019 and 2020 are lower than those of recent years because 
the LIDAR purchases in 2018 allowed FEMA to get the necessary elevation 
data into the production pipeline. FEMA estimates we will spend $11 
million on LIDAR in fiscal year 2020. FEMA will continue to acquire 
LIDAR under the (3DEP) and support continued investments in this 
technology to support the future of the flood mapping program.
    Through fiscal year 2019, we expect the 3DEP to have funded LIDAR 
for over 60 percent of the United States (excluding Alaska). This 
progress includes funding from all participating agencies and partners.

                                                         Risk MAP LIDAR/3DEP Spending 2014--2019
--------------------------------------------------------------------------------------------------------------------------------------------------------
                        2014                                    2015                     2016                     2017                     2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
$12 million.........................................              $11 million              $34 million              $41 million              $93 million
--------------------------------------------------------------------------------------------------------------------------------------------------------


    The LIDAR investment over the past few years has enabled FEMA's 
mapping to reach a tipping point in significantly increasing the 
development of flood hazard data. By leveraging LIDAR data and applying 
new technologies, FEMA has implemented a ``base level engineering'' 
strategy, which provides widespread coverage of credible flood hazard 
information in a way that was not possible in the past. LIDAR 
technology and this base level engineering approach have provided 
several benefits for FEMA's flood mapping program:

  --Continuously decreasing costs for wide-area LIDAR collection, along 
        with a coordinated national strategy for complete LIDAR 
        coverage through the 3DEP, has increased the availability of 
        accurate digital elevation data and allowed FEMA to transform 
        flood hazard modeling and mapping for the National Flood 
        Insurance Program.

  --This wider availability of LIDAR elevation data has allowed FEMA to 
        transition from piecemeal engineering updates to large-scale 
        automated analyses.

  --Accurate, updated elevation data will enable FEMA to eliminate the 
        unmodernized inventory and deliver high-quality replacement 
        maps, without the older modernization strategies that have 
        caused frustration for many communities.

  --These methods will also allow FEMA to update large areas of the 
        digital flood map inventory where flood zones are still based 
        on older data.

  --The net result will be reaching our goals for a credible and 
        reliable flood hazard inventory through mapping projects built 
        on these LIDAR investments.

    At current funding levels, we expect to initiate the work necessary 
to have 80 percent of our existing flood data inventory supported by 
current mapping and engineering standards by 2021. However, since the 
mapping process is transparent and requires extensive community 
engagement and public review, continued funding beyond 2021 will be 
needed for all those mapping projects to be completed and adopted by 
communities. In addition, factors such as residual risk behind levees 
and other flood control structures, as well as future conditions, still 
need to be analyzed in order for FEMA to meet its obligations under the 
Biggert Waters Flood Insurance Reform Act of 2012, Sec. 100216. 
Finally, reviews and updates to maps will continue to be made because 
of physical or climatological changes, or improvements in science and 
engineering. To maintain 80 percent of our existing flood data 
inventory at current mapping and engineering standards, as well as 
advancing to the next generation of flood hazard mapping, the mapping 
program will need continued funding.
    The flood hazard mapping program is building on this solid 
foundation to keep the flood hazard data current and to use the data to 
drive actions that increase resilience. Our stakeholders and customers 
have told us that the current flood map products do not completely meet 
their needs, and recent disaster events indicate that these products do 
not provide a comprehensive understanding of the nation's flood risk. 
Based on this input, we are exploring the next generation of the flood 
mapping program to support a more comprehensive approach to pricing, 
managing, and understanding the nation's increasing flood risk.
    Question. Your budget request includes enhancements for specific 
information technology systems.
    Can you talk about why you need IT enhancements for the Grants 
Management, Data Analytics, and Financial Systems programs?
    Answer. FEMA's grants management domain spans multiple programs to 
provide support to disaster survivors, help communities protect and 
mitigate impacts on critical infrastructure, provide assistance to 
first responders, improve communities' homeland security capabilities, 
and provide emergency management training and education.
    These numerous grants programs have varying requirements that have 
resulted in diverse reporting mechanisms, organization structures, 
procedures, business processes, and systems, each with complex 
interfaces that require Federal, state, local, tribal and territorial 
government users and stakeholders to conduct the business of grants 
management differently. This has occurred and evolved over time in 
response to legislative, policy, political and mission drivers.
    Several years ago, FEMA's Office of the Chief Information Officer 
conducted an IT Resiliency Review, analyzed multiple audits and 
findings, and concluded that the current operational environment has 
created a major challenge to FEMA's ability to operate efficiently and 
effectively. Additionally, for many stakeholders, portions of the 
grants management life cycle were still managed through labor-
intensive, manual processes. The capability gap in grant systems 
required program users to develop independent, office grown, stop-gaps 
to manage grants through the entire life cycle. These challenges 
increased administrative burden to the Agency and recipients/sub-
recipients, missed opportunities for leveraging standardized processes 
and reporting across programs, duplication of effort, and lack of 
unified program communications and guidance, including Title 2 CFR Part 
200, Uniform Administrative Requirements, Cost Principles, and Audit 
Requirements for Federal Awards. Adapting legacy systems to the 
legislative requirements was difficult and expensive due to the lack of 
flexibility in legacy systems.
    In order to be ready to respond to the constantly evolving series 
of all-hazard risks across the nation, FEMA is transforming its grants 
programs to improve business and operational efficiency and to become 
more effective for users and stakeholders. The Grants Management 
Modernization (GMM) Program was initiated to develop an end-to-end 
grants management capability using non-materiel (e.g., doctrine, 
training, organization) and materiel (technology) solutions to meet 
business needs and address existing gaps that impact DHS and FEMA 
missions.
    GMM began with a cloud-based IT platform to consolidate FEMA's ten 
legacy grant systems and streamline business processes into more 
efficient and effective grants management and administration. The new 
system is called FEMA Grants Outcomes (FEMA GO) and will support the 
40+ grant programs spanning across disaster and non-disaster grants.
    The fiscal year 2020 President's request includes sufficient 
funding to allow GMM to further expand the number of development teams 
to build out functionality for all 40+ grant programs, including non-
disaster grants, mitigation grants, and public and individual 
assistance grants. This includes fully automating business processes 
that are currently being performed manually. Funding for GMM continues 
to be critical for IT enhancements as FEMA GO development progresses to 
Full Operational Capability (FOC) in the out years.
      enterprise data & analytics modernization initiative (edami)
    FEMA must provide disaster assistance to stakeholders and survivors 
as quickly and efficiently as possible, while reducing the risk of 
fraud, waste, and abuse. FEMA is continuing a multiyear effort to work 
smarter through data analytics and ultimately deliver better outcomes 
for survivors and communities. Gaps in FEMA's data sharing 
capabilities, and limits to its overall data management architecture, 
can hamper the ability to make data-driven decisions. Through investing 
in the Enterprise Data & Analytics Modernization Initiative (EDAMI) in 
fiscal year 2020, FEMA will continue to increase data transparency, 
improve mission outcomes through increased data analytics, and 
ultimately expedite the delivery of assistance.
    The fiscal year 2020 Budget requests funds to support the 
acquisition of the FEMA Data Exchange and to implement data management 
standards, policies, and guidelines necessary to ensure the quality and 
accessibility of FEMA data. The requested funding will allow FEMA to 
continue the obtain phase of the acquisition, including contracted 
efforts for system development and integration, cloud infrastructure, 
and security in adherence to DHS OCIO policy.
    There is a tremendous opportunity to reduce the complexity of 
FEMA's data assets if the Agency addresses identified data management 
and analytics capability gaps during this period of major 
modernization, while systems are already undergoing substantial change. 
In contrast, without this investment, the three existing modernization 
efforts are at risk of perpetuating FEMA challenges with redundant, 
non-interoperable data sets.
                 financial systems modernization (fsm)
    The FSM program is critical to supporting all parts of the FEMA 
mission. The current financial system, WebIFMIS, is a 25-year-old 
COBOL-based application that is expensive and challenging to maintain 
and support. It is also inflexible to new reporting requirements, and 
insufficient for providing the internal controls recognized by external 
auditors. The underlying technology of the legacy system it uses limits 
the ability to meet emerging operational needs and remediate long-
standing audit findings.
    If funding is not received for FSM, we will continue to be 
restrained by our outdated legacy financial systems. It will increase 
the risk of a significant mission impact if these outdated systems 
experience critical security or operational failure.

                                 ______
                                 

             Questions Submitted by Senator Richard Shelby
    Question. I am under the impression that the Center for Domestic 
Preparedness is a key piece of your education and training strategy. 
Our recently enacted appropriations bill made significant investments 
in this facility.
    Can you tell us more about the mission of the Center for Domestic 
Preparedness?
    Answer. The statutory mission of the Center for Domestic 
Preparedness (CDP) is to ``Identify, develop, test, and deliver 
training to state, local, and tribal emergency response providers; 
provide on-site and mobile training at the performance, management, and 
planning levels; and facilitate the delivery of training by the 
training partners of the U.S. Department of Homeland Security''.
    The CDP provides training most responders cannot get at their home 
agencies. At its Chemical, Ordnance, Biological, and Radiological 
Training Facility (COBRATF), the CDP offers the only program in the 
nation featuring civilian training exercises which use toxic chemical 
agents and biological materials (i.e. Sarin, VX, anthrax and ricin). 
The advanced hands-on training enables responders to respond 
effectively to real-world incidents involving chemical, biological, 
explosive, radiological, and other hazardous materials.
    Training at the CDP's Advanced Responder Training Complex (ARTC) 
prepares responders to deal with a wide range of man-made and natural 
hazards in settings commonplace in communities across the nation. Among 
other things, the ARTC has an industrial park, a mock subway station, 
and a simulated street scene with offices, businesses and warehouses.
    The Noble Training Facility at the CDP is the only hospital 
facility in the United States dedicated solely to training hospital and 
healthcare professionals in disaster preparedness and response.
    The facility includes classrooms, exercise and simulation areas, an 
emergency operations center, emergency department, clinical ward, and 
an isolation ward for `patients' with highly infectious diseases.
    In addition, responders earn Continuing Education Units (CEUs) for 
completing CDP courses. Many responders are required by their 
departments to earn a designated amount of CEUs each year.
    Further, the CDP offers the exclusive opportunity to combine state, 
local, tribal, and territorial responders with those from other 
departments and agencies to train jointly. Responders from all 50 
states and territories representing 17 seventeen different 
disciplines--Emergency Management, Emergency Medical Services, Fire 
Service, Governmental Administrative, Hazardous Materials, Healthcare, 
Law Enforcement, Public Health, Public Safety Communications, Public 
Works, Agriculture, Education, Citizen/Community Volunteer, Information 
Technology, Security and Safety, Search and Rescue, and 
Transportation--train at the CDP.
    Question. Can you share some of the success stories that are coming 
out of the Center for Domestic Preparedness?
    Answer. Yes, here are three success stories which encapsulate the 
value that CDP provides the homeland security community through its 
training capabilities.
    Medical Training in Puerto Rico--FEMA and the Government of Puerto 
Rico have been working together to bolster the island's emergency 
response capability and capacity by conducting a series of trainings on 
the island.
    In 2018, the CDP presented a Health Care Leadership for Mass 
Casualty Incidents (HCL) and Hospital Emergency Response Training for 
Mass Casualty Incidents (HERT) courses on the island to approximately 
100 nurses, doctors and healthcare administrators.
    In 2019 the CDP again delivered mass casualty incident and 
additional healthcare training offerings in Puerto Rico in advance of 
the Atlantic hurricane season. During the two weeks of training, 1,047 
courses were completed in Puerto Rico.
    2020 Democratic National Convention--More than 100 medical 
professionals from Wisconsin attended training at the CDP campus in 
Anniston, Alabama in late April 2019. The members attended one of three 
different courses and participated in an Integrated Capstone Event, 
which is a full-scale exercise at the end of the week where particpants 
work together to respond to one or more simulated incidents patterned 
after recent real-world events.
    Complex Coordinated Attacks Theme Week--The CDP conducted a Complex 
Coordinated Attacks Theme Week the last week of March 2019 to enhance 
emergency responder preparedness for and ability to respond to complex 
coordinated attacks.
    More than 100 participants were on hand for the training which 
included the HCL, HERT and two Federal Law Enforcement Training Center 
(FLETC) Active Shooter Threat Training Program courses. The week 
culminated with participants exercises including simulated explosions, 
active shootings, wide-spread contamination and mass casualties.
    Question. Do you consider the Center for Domestic Preparedness a 
key part of your training and education strategy?
    Answer. CDP is a key component of the National Training and 
Education System (NTES). NTES is an integrated and systematic approach 
that unifies training and education efforts while building national 
security and resilience. This system is inclusive of all communities, 
regardless of demographics, geography, access to resources, experience 
with government, crime, political activity, and economic prosperity. 
The following guiding principles support the NTES:

  --Training and education builds and sustains capabilities that 
        address a community or organization's priority threats and 
        hazards;

  --Development of individual competencies through training and 
        education reinforces preparedness;

  --Continual improvement of training and education programs ensures a 
        competency base necessary for achieving security and 
        resilience;

  --Shared data and analysis informs requirements and decisionmaking; 
        and

  --Engaged partnerships across the whole community and through 
        ``Communities of Practice'' advance training and education 
        efforts.

    Through these principles, NTES enables the whole community to 
translate training and education needs into viable courses of action 
that produce successful outcomes and strengthen national preparedness.

                                 ______
                                 

             Questions Submitted by Senator Lisa Murkowski
    Question. As you know, I was deeply frustrated that FEMA was 
delayed in making a recommendation to the President with respect to 
Governor Dunleavy's request for Stafford Act major disaster declaration 
on last November's earthquake because of the unfortunate lapse of 
appropriations. We were told that the request for a Stafford Act 
declaration could not even be reviewed during a government shutdown, 
because the magnitude of the earthquake wasn't sufficient to justify 
that. Meanwhile, FEMA was sitting on more than adequate Disaster Relief 
Fund monies that lawfully could have been used to review our Governor's 
request but was unwilling to use those funds to process the request 
when it came in. You are also aware that I wrote the President about 
this issue arguing that FEMA was authorized by the Homeland Security 
Appropriations Act as well as the Department of Homeland Security lapse 
in appropriations plan to utilize Disaster Relief Fund monies to 
process our Governor's request. On April 5, 2019 you sent a response 
indicating that FEMA, in part as a result of my letter, has determined 
that for any future lapse of annual appropriations where the Disaster 
Relief Fund remains funded, FEMA may continue to process emergency and 
major disaster declaration requests under the ``Necessary Implication'' 
exception to the Anti-Deficiency Act. You further indicate that FEMA's 
Chief Counsel has memorialized application of this exception for 
declaration processing in a memorandum of law, and FEMA has updated its 
lapse planning guidance to reflect the new legal opinion.
    Would you kindly submit the Chief Counsel's Memorandum of Law and 
FEMA's updated lapse planning guidance reflecting the new legal opinion 
for the record?
    Answer. As clarified following the 2018-2019 lapse in 
appropriations, and after definitive guidance from the Department, FEMA 
is authorized by ``necessary implication'' to incur obligations funded 
through a lapsed annual appropriation for the continuation of the 
delivery of disaster relief. FEMA may thus ``except'' those personnel 
necessary to perform functions that will ensure the continuation of the 
delivery of disaster relief. Those functions generally include the 
processing of declaration requests, development of grant scopes of 
work, approval of requests for new forms of assistance such as disaster 
case management or crisis counseling, obligation of grant funding, 
large project notification processing, contract oversight for contracts 
necessary to the delivery of disaster assistance, and technology 
oversight and maintenance including security and software fixes. Other 
lapse planning documents are in the process of being updated pursuant 
accordingly.
    Question. As a courtesy to this member, as technical assistance, 
would you draft bill and report language that might be included in this 
and future appropriations bills to ensure that processing of requests 
for Stafford Act major disaster and emergency declarations are not 
delayed during a lapse in appropriations, using any funds available to 
the Department of Homeland Security, which may include but not be 
limited to the Disaster Relief Fund?
    Answer. To the extent Congress would like to make this explicit in 
legislation, as per the request for technical drafting assistance in 
this Question for the Record, FEMA submits the following language:
    Sec. 5XX--Notwithstanding any other provision of law, including but 
not limited to 31 U.S.C. 1341(a)(1) and 1571(a), the Administrator of 
the Federal Emergency Management Agency is hereafter authorized to 
incur obligations for the payment of salaries and any other necessary 
expenses, in advance of appropriations, to ensure that requests for 
Presidential declarations of emergencies and major disasters under the 
Robert T. Stafford Disaster Relief and Emergency Assistance Act (42 
U.S.C. 5121 et seq.) are processed without interruption.
    If this is to be included in an appropriations act, as the senator 
suggests, it would need to contain words of futurity--typically 
``hereafter''--to allow it to continue in effect beyond the end of the 
fiscal year. The statutory citations are to relevant provisions of the 
Antideficiency Act and are required to clarify these obligations would 
be akin to deficiency appropriations.
    Question. Your prepared statement speaks to FEMA's commitment to 
construct new warehousing space for emergency food and water 
stockpiling in Hawaii. Alaska is also in need of additional warehousing 
space. Our state director previously thought that emergency supplies 
might move to Alaska with the speed that fluid can get through a soda 
straw. After a recent TRANSCOM analysis he now concludes that the 
supplies would get to our state with the speed that coffee might move 
through a hollowed out stirrer. I understand that FEMA has a plan to 
construct a 75,000 foot warehouse on Joint Base Elmendorf Richardson to 
preposition food, water, medical supplies and urban search and rescue 
extrication equipment.
    When can we expect these funds to be programmed and is there 
anything I can do to accelerate that process?
    Answer. FEMA requested funding for new construction in Alaska in 
fiscal year 2021. FEMA is pursuing the establishment of a 85,000 square 
foot warehouse positioned near significant transportation nodes and key 
partners, to preposition food, water, medical supplies and urban search 
and rescue extrication equipment. This Alaska Distribution Center will 
expedite the delivery of critical commodities and equipment to disaster 
survivors in Alaska. . With this new Distribution Center FEMA will gain 
4-14 days in delivery time to Alaska. In Hawaii, FEMA is requesting a 
lease expansion and upgraded racking for Hawaii. This is not new 
construction.

                                 ______
                                 

             Questions Submitted by Senator James Lankford
    Question. The scope of the Disaster Relief Fund (DRF) has ballooned 
since its inception in 1948. Not only are the dollar amounts 
drastically higher, the DRF is now deemed absolutely necessary to make 
resources available to states and locales following a disaster. While I 
certainly understand that the DRF is needed for a backlog of projects 
from previous disasters in addition to rapid payouts for new disasters, 
robust oversight practices must be in place, especially given the 
drastic increase of the DRF.
    What are the current controls you have to track the funds that flow 
through this account to states and localities?
    Answer. FEMA policies and procedures provide standard goals and 
objectives to apply consistent financial management and internal 
controls in carrying out the provisions pursuant to the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act, Public Law 93-
288 (as amended), 42 U.S. Code sections 5121-5207 (2017) as well as 
other statutory authorities. FEMA's robust oversight structure includes 
internal control audits, risk management and a spend plan program for 
calculating costs for eligible response and recovery efforts. This 
program has a proven history of projecting an annual spend rate with a 
high degree of accuracy with multi-level controls for the review and 
approval of requirements prior to allocation of disaster funds to 
State, Local, Tribal and Territorial (SLTT) grants recipients. FEMA 
tracks funds provided to our SLTTs on a daily basis by disaster, 
category (Public Assistance, Hazard Mitigation, etc.), applicant, and 
project to appropriately manage Disaster Relief Fund operations.
    In fiscal year 2019, the DRF was increased by $12.2B and it is 
expected that a similar increase will be enacted for fiscal year 2020, 
in addition to disaster supplemental appropriations bill.
    Question. How will FEMA conduct oversight of these funds and will 
you commit to provide a detailed accounting to Congress for how this 
money is spent?
    Answer. FEMA has a robust oversight structure in place to include 
internal control audits, a spend plan program for calculating disaster 
costs to include an annual spend rate with a high accuracy rate and 
multi-level controls on the review and approval of disaster allocation 
of funds. We will provide a detailed accounting at Congresses request.
    In addition, the Agency has consolidated a large portion of the 
processing of Public Assistance (PA) grants into Consolidated Resource 
Centers (CRC). This model for centralizing the process for validating, 
developing, reviewing, and processing PA disaster grant applications 
serves all disasters nationwide. This model provides a more stable 
internal control environment during pre-award, promotes more sharing of 
technical resources, and ensures standard development of sub-awards.
    Most recently, FEMA has implemented a new process for incremental 
validation of disaster grant expenditures--Validate As You Go (VAYGo). 
This pilot program is applicable to Hurricanes Harvey, Irma, and Maria. 
It changes the structure of how we perform oversight for disaster grant 
expenditures down to the sub-recipient level. It is a statistically 
valid, risk-based approach of sampling documentation for expenditures 
on a quarterly basis. The early review of documentation for 
completeness and compliance will assist us in identifying and 
mitigating problems as they are identified early in the process instead 
of waiting until closeout, recapture improper payments by leveraging 
existing Improper Payments Elimination and Recovery Improvement Act of 
2012 (Public Law 112-248) (IPERIA) detection and corrective action 
processes and promote expedited closeout with a reduced administrative 
burden on both the recipient and FEMA.
    Question. What role do states and localities pay in the accounting 
of these funds?
    Answer. SLTT recipients play a key role in ensuring all funding 
they receive is spent in accordance with all applicable Federal 
standards, rules, and regulations. The recipient is responsible for 
ensuring that no funds are disbursed to subrecipients without a review 
and validation of the documentation supporting the sub-recipients 
request for funds prior to disbursement.

                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy
    Question. I have always supported FEMA's work responding to 
disasters, whether it is my home state of Vermont that has been 
impacted, or any other state or territory. Helping individuals and 
communities recover from overwhelming events is one of the most 
fundamental roles of government, and it is who we are as a country. 
With this in mind, I was dismayed last month when you declined 
Vermont's request for a major disaster declaration, after the State was 
affected by a severe winter storm in late November 2018. This storm 
devastated the public utility infrastructure in central and northern 
Vermont, in an area still recovering from three declared major 
disasters in the past 2 years. To support the Governor's request, the 
State fully documented the severe impacts on public infrastructure as 
exceeding the minimum threshold for a disaster declaration. In an 
abrupt, brief letter dated January 14, 2019, you also denied Governor 
Scott's request for a major disaster declaration, while offering no 
detailed explanation of why the request was rejected.

  --Why was Vermont Governor Scott's well documented request for a 
        major disaster declaration, dated January 4, 2019, for storms 
        that swept Vermont November 26 through 28, 2018, denied?

  --Please document for the Committee in detail whether, and how, that 
        application fell short of the requirements for a major disaster 
        declaration.

  --If you cannot document how Vermont's application was insufficient 
        or flawed, then explain the data, and policy rationale used in 
        the acting FEMA Administrator's decision to deny the request.

  --Please document for the Committee other requests from states, 
        tribes or territories for major disaster declarations that FEMA 
        has denied in the past 24 months. How does the denial of 
        Vermont's most recent request fit within current FEMA policy?

  --If the denial is not part of a consistent and established policy 
        and practice by FEMA, is it arbitrary and punitive?

    Answer. The President makes a major disaster declaration for a 
state when an incident is of the severity and magnitude as to be beyond 
the combined capabilities of the state and local governments to 
respond. FEMA's Public Assistance (PA) program provides aid to states 
and local governments and certain private non-profit organizations for 
emergency work and the repair or replacement of disaster damaged 
facilities. FEMA evaluates the total eligible cost estimate against the 
statewide population to give some measure of the per capita impact 
within a state. FEMA uses the countywide per capita indicator to 
evaluate the impact of the disaster at the county level in order to 
determine the areas eligible for assistance. The Public Assistance 
program has a minimum threshold of $1 million in public assistance 
damages per disaster.
    FEMA expects even the lowest population states to be able to cover 
this level of public assistance damage.
    On January 4, 2019, Governor Philip B. Scott requested a major 
disaster declaration for the State of Vermont as a result of a severe 
winter storm that occurred during the period of November 26-28, 2018. 
Following the review of all the information available, it was 
determined that the damage from this event was not of such severity and 
magnitude as to be beyond the capabilities of the state and affected 
local governments.
    On March 14, 2019, Governor Scott appealed the denial of his 
request for Public Assistance for five counties and Hazard Mitigation 
statewide. Although the total eligible cost estimate exceeded the 
statewide per capita indicator and the damage in the five requested 
counties exceeded the countywide per capita indicator, the estimated 
cost of assistance is only one of several factors that FEMA considers 
when evaluating a Governor's request for a major disaster declaration. 
Analysis of the damage revealed that the majority of the costs were 
damage to utilities incurred by two private nonprofit electric 
cooperatives, the total cost estimate minimally exceeded the minimum 
damage amount of $1 million, and the state took limited actions in 
response to the incident. After a thorough review of all the 
information contained in the initial request and appeal, FEMA 
reaffirmed its original findings that the damage identified in the 
Governor's request was not of such severity and magnitude as to be 
beyond the capabilities of the state and affected local governments. 
Governor Scott was notified on April 8, 2019, that his appeal for a 
major disaster declaration was denied.
    In the past 24 months, there have been other requests for major 
disaster declarations that have been denied although the PA indicators 
were met. In all those instances, it was determined that supplemental 
Federal disaster assistance was not warranted.
    Here are a few examples:

 
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                     Declaration    PA Program                     Statewide Per
                State                          Incident                   Action                    Appeal             Action Date     Request       Projected     Statewide Per      Capita
                                                                                                                                         Date       Impact 100%    Capita Impact     Indicator
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                  LA                   Flooding                  TD                        Appeal..................        2/7/2019    6/29/2018      $6,994,077           $1.54           $1.50
                  SD                   Severe                    TD                        Appeal..................      10/15/2018    6/14/2018       3,115,321            3.83            1.50
                                       Storms and..............
                                       Flooding................
                  ND                   Severe                    TD                        ........................      11/14/2017    8/24/2017       1,044,400            1.55            1.46
                                       Storm...................
                  ID                   Severe                    TD                        Appeal..................        5/2/2017   12/28/2017       2,331,393            1.49            1.43
                                       Winter..................
                                       Storm...................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. In your testimony, you expressed strong support for a 21 
percent cut to the Emergency Management Performance Grant (EMPG) as 
proposed in the President's budget framework and asserted that states 
are not fully deploying this funding to prepare for evolving threats 
and hazards, due to entrenched operational practices. You expressed 
that cutting EMPGs is a risk that this administration is willing to 
take even with the increasing complexity of disasters. This concerns me 
greatly, considering that the EMPG is the backbone of state and local 
emergency management budgets, including Vermont's. Vermont and other 
states responded to over 23,000 incidents last year without needing 
additional Federal assistance, and that is in large part due to the 
preparedness investment of EMPGs. This program leverages significant 
state investments, considering the 50:50 match requirement. In Vermont, 
EMPG supports the VT Alert Emergency Notification System which has over 
14,000 subscribers to receive timely emergency notifications in their 
area. It also funds a large portion of the Vermont Emergency Management 
staff without which the state would struggle to respond to even small 
disasters.
    Considering the almost daily disasters striking one region or 
another in the United States, whether floods in the Great Plains, 
tornadoes across the south or fires in the west, how does the 
administration justify significantly underfunding the Emergency 
Management Performance Grants (EPMG), which are your agency's most 
important program for supporting state level emergency preparedness?
    In estimating the impact of the proposed cuts to the EPMG program, 
have you enumerated and valued the lives that may be lost as a result? 
What is the value in dollars of additional public and private 
infrastructure damage that may result?
    Answer. The Administration believes that preparedness is a shared 
responsibility, and that grantees should fund those activities that 
demonstrate the greatest return on security investments. The proposed 
reductions in fiscal year 2020 are consistent with the President's 
budget priorities to stand prepared for emergency response and disaster 
recovery, eliminating funding for programs to ensure the Federal 
Government is not supplanting other stakeholders' responsibilities. The 
bulk of EMPG funding goes toward personnel costs--primarily for the 
salaries of emergency management personnel. While their jobs are most 
certainly important, state and local governments should do more to bear 
this cost burden.
    The proposed reductions still ensure adequate funding to maintain/
sustain existing core capabilities.
    Beyond the nearly $2 billion that is requested for grants, the 
Department also supports responders through other activities including 
technical assistance, training, and exercises.

                                 ______
                                 

             Questions Submitted by Senator Jeanne Shaheen
    Question. The town of Woodstock, NH, a small community in northern 
NH with less than 1,500 residents, sustained significant damages to its 
sewer pipes during a severe storm and flooding event in July 2017. This 
storm resulted in a Presidentially Declared Disaster. The town 
submitted a request for assistance to FEMA to repair the protective 
cover and fractured pipe but was denied because, in FEMA's opinion, it 
could not definitively prove that the damage was caused by the storm 
and flooding. It should be noted that protective covering of pipes in 
this same area were damaged in Hurricane Irene in 2011 and FEMA 
reimbursed the town in part.
    It's often difficult in small New England towns with limited 
resources to maintain continuous oversight and records on the condition 
of every piece of infrastructure, particularly underwater sewage pipes.
    Can you commit to reviewing FEMA regulations that may be overly 
burdensome and make it difficult for small towns like Woodstock to 
receive assistance after natural disasters?
    Answer. FEMA reimburses Applicants for eligible work. Pursuant to 
44 CFR Sec. 206.223(a), in order to be eligible, the work must be 
required as a direct result of the declared incident; located within 
the disaster declaration designated area; and the legal responsibility 
of an eligible Applicant.
    FEMA provides substantial technical assistance to reduce the burden 
on Applicants to demonstrate eligibility. Additionally, FEMA and the 
State (recipient) conduct site inspections alongside the Applicant to 
validate, quantify, and document the cause, location, and details of 
the reported damage. Detailed inspections of incident-related damage to 
a facility to determine the extent of damage and method of repair, 
including professional evaluations, are eligible as part of the work to 
restore the facility. FEMA will continue to work with Applicants to 
ensure they receive the assistance for which they are eligible.
    Question. PFAS chemicals are found in a class of firefighting foam 
used by both civilian and military firefighters. But after decades of 
use, several studies have linked PFAS exposure to a number of adverse 
health effects. This is of particular concern to the brave men and 
women in our nation's fire service who have experienced long-term 
occupational exposure to these harmful chemicals. We must ensure that 
civilian fire departments have the resources needed to safely dispose 
of firefighting foams that contain PFAS or replace gear contaminated 
with PFAS.
    When adopting criteria for Assistance to Firefighters Grant 
applications in 2019 and future fiscal years, can you ensure that 
resources will be made available to local fire departments that are 
seeking assistance to reduce PFAS exposure?
    Answer. FEMA's Assistance to Firefighters Grant (AFG) Program has, 
and continues, to support the health and wellbeing of the Nation's 
firefighters. As noted in the question, there is currently increased 
discussion of the risks to firefighters associated with exposure to 
PFASs (per--and polyfluoroalkyl substances). Such exposures can occur 
both at the fire scene and in the equipment used each day. Although 
much more needs to be learned about PFAS--both in terms of the 
consequences of exposure to PFAS and the source of such exposures--AFG 
Program funds can already contribute to enhancing protection to 
firefighters in various ways.
    For example, the AFG Program's Fire Prevention and Safety (FP&S) 
Grant Program funds research in areas of firefighter safety and fire 
prevention. FP&S funding can support further research into the impact 
of PFAS on firefighters including firefighter exposure to PFAS, and the 
presence of PFAS at the fire scene, the fire house, or in equipment. 
Funds under the AFG Program can also be used to fund activities related 
to firefighter health and safety. This can potentially include 
screening of firefighters for PFAS exposure. Further, to the degree 
more is learned about safer equipment to both protect against PFAS 
exposure as well as equipment that does not contain PFAS substances, 
such equipment, as identified by the fire service, is allowable for 
purchase with AFG funds.
    FEMA, through the AFG Program, is committed to working in close 
partnership with the fire service in developing the direction and use 
of AFG funds. This includes ongoing discussions with fire service 
representatives. The activities discussed above are currently allowable 
under the AFG program and will continue to be allowable in the future. 
Discussions regarding firefighter health and safety will continue in 
2019 and beyond.
    Question. Have FEMA or the U.S. Fire Administration engaged in 
discussions pertaining to PFAS?
    Answer. The U.S. Fire Administration (USFA) has no active or 
historical projects dealing with firefighting foams containing PFAS. 
While firefighting foams are an important tool in the tool box to 
address specific firefighting needs, USFA is aware that firefighting 
foams are one of many sources of PFAS in the environment and are 
suspected of causing adverse health effects in humans. The EPA has a 
well-established project dealing with PFAS and have published 
infographic. The Agency for Toxic Substances and Disease Registry 
(ATSDR) has also produced guidance on the public health matters which 
can be accessed at Per- and Polyfluoroalkyl Substances (PFAS) and Your 
Health. Also, the Fire Fighting Foam Coalition promulgated the Best 
Practice Guidance for Use of Class B Fire Fighting Foams in March 2016 
that addresses environmental concerns.
    The National Fire Academy (NFA) is aware of these issues and will 
include PFAS issues in the curriculum as NFA emphasizes health and 
wellness in all exposure topics.
    Question. Last year, Congress passed and the president signed into 
law the Disaster Recovery Reform Act (DRRA) of 2018 as part of the 
Federal Aviation Administration Reauthorization Act of 2018. The 
reforms included in the DRRA aim to reduce the complexity of the 
Federal Emergency Management Agency's (FEMA) response efforts in order 
to build the nation's capacity for the next catastrophic event. Several 
of these provisions authorize FEMA to provide assistance to state and 
local governments for building code and floodplain management to ensure 
that facilities are restored in a manner that allows them to be 
resilient. This is important from an energy perspective, from an 
emergency response perspective and from a pre- disaster mitigation 
perspective.
    Do you share the views of your predecessor Brock Long that progress 
needs to be made on building codes if we want to mitigate future 
natural disasters?
    Answer. Yes. Lack of strong building codes results in worse damage 
and greater personal loss from natural disasters. Building codes, as 
part of a strategy for resilient communities including pre-disaster 
mitigation, reduce the impact of future disasters. Communities improve 
resiliency when they adopt the latest building codes and community 
officials enforce those high standards. At FEMA, we see that states, 
tribes, and communities that adopt and enforce disaster-resilient 
building codes and invest in risk reduction activities are 
demonstrating a commitment to mitigation which we recognize in our 
existing pre-disaster mitigation programs. In addition, the Disaster 
Recovery Reform Act (DRRA) provides new assistance opportunities and 
incentives to proactively implement the latest building codes both 
before and after disasters. With only about 1/3 of the Nation's 
jurisdictions having adopted the most recent International Building 
Code (IBC) and International Residential Code (IRC), more progress 
needs to be made. The National Institute of Building Sciences 2018 
Interim Update of the Mitigation Saves Study found that building to 
meet the latest codes (2018 IRC and IBC) versus older, 1990-era, code 
design and National Flood Insurance Program (NFIP) requirements, 
results in a benefit of $11 for every $1 invested.
    Question. How is FEMA educating and proactively working with state 
and local governments regarding the changes in the Stafford Act made 
under the DRRA that allow for funds to be used, alongside rebuilding, 
to support implementation and enforcement of building codes, including 
building energy codes?
    Answer. FEMA is currently developing a policy to implement Section 
1206 of the DRRA. Through implementation of this section, FEMA will be 
able to provide additional assistance to communities to help enforce 
their adopted building code and floodplain management regulations. FEMA 
intends to seek public comment on a draft policy, and will be seeking 
state, tribal and local input during that process. Once the policy is 
finalized, FEMA will be engaging with state, tribal and local partners 
to ensure the policy provisions are understood.
    Question. How is FEMA implementing the Federal Cost Share Reform 
Incentive? In particular, how is FEMA recognizing and giving weight to 
the encouragement of adoption and enforcement of the latest building 
codes, including the latest building energy codes?
    Answer. FEMA is looking at the best way to holistically approach 
the review of its building code related authorities and programs and 
what would help drive increasing resilience across the country. This 
includes relevant sections in the DRRA and the cost-share adjustment 
provision in the Bipartisan Budget Act of 2018. This review is 
currently ongoing.
    Under the DRRA, FEMA is working to implement Section 1206 and 
Section 1235(b). Section 1206 authorizes FEMA to provide assistance to 
state and local governments for building code and floodplain management 
ordinance administration and enforcement. Section 1235(b) authorizes 
FEMA to provide Public Assistance funding to replace and restore 
disaster damaged facilities to the latest published editions of 
relevant consensus-based codes and standards to ensure that facilities 
are restored in a manner that allows them to be resilient. In addition, 
Section 1234 authorized FEMA to provide assistance from the National 
Public Infrastructure Pre- Disaster Mitigation Fund for building code 
adoption, as well as consider the extent to which an applicant has 
facilitated adoption and enforcement of the latest published editions 
of relevant consensus-based codes when determining the applicant's 
eligibility for assistance. FEMA is currently working on policy 
guidance for each provision.
    Question. To what extent is FEMA tracking whether federally-funded 
reconstruction is being implemented with baseline building codes and 
standards?
    Answer. FEMA requires staff to evaluate project eligibility for 
baseline building codes and standards in accordance the FEMA Public 
Assistance Program and Policy Guide (Chapter 2.VII.B). Tracking 
functionality includes the ability for FEMA staff to identify potential 
eligibility issues with codes and standards but does not require 
systematically tracking every project at this level of detail.
    Question. To what extent is FEMA tracking how much federally-funded 
reconstruction in 2018 was done in our states or communities lacking 
building codes, including building energy codes?
    Answer. Unless a code has been identified as a minimum standard 
under the FEMA Public Assistance Program and Policy Guide (Chapter 
2.VII.B.2), FEMA's Public Assistance Program does not otherwise 
evaluate the nature to which a state or community codes are lacking. 
Tracking functionality includes the ability for FEMA staff to identify 
potential eligibility issues with minimum standards but does not 
require systematically track every project at this level of detail.
    Question. The Fourth National Climate Assessment, published in 
November 2018 by Federal science agencies, found that the changes in 
the likelihood or severity of recent extreme weather events like 
hurricanes and wildfires can now be attributed with increasingly higher 
confidence to human-caused warming. Moreover, a 2018 report from the 
Union of Concerned Scientists found that accelerating sea level rise in 
the lower 48 states, primarily driven by climate change, is projected 
to worsen tidal flooding, putting as many as 311,000 coastal homes with 
a collective market value of about $117.5 billion today at risk of 
chronic flooding within the next 30 years--the lifespan of a typical 
mortgage.
    How is FEMA working to respond to the increased threats from 
natural disasters as climate change fuels extreme weather events?
    Answer. FEMA's Strategic Plan recognizes potential future risks 
including those associated with a changing climate and commits the 
Agency to taking proactive steps to increase pre-disaster investments 
in preparedness and mitigation. The Strategic Plan states that disaster 
costs are expected to continue to increase due to rising natural hazard 
risk and population increases in coastal areas and notes that both 
natural and manmade hazards are becoming increasingly complex and 
unpredictable.
    A key strategic objective in the Strategic Plan is to ``Incentivize 
Investments that Reduce Risk, Including Pre-Disaster Mitigation, and 
Reduce Disaster Costs at All Levels.'' FEMA recognizes that universal 
access to accurate and up-to-date risk information is a critical 
component of informed investment decisions and has therefore committed 
to improving the Agency's ability to assess and quantify risk from 
multiple hazards, increasing risk mapping, identifying partnerships 
related to risk study and mitigation investment, and clearly presenting 
risk information to the American public.
    Additionally, FEMA is working with SLTTP and non-governmental 
stakeholders to adopt and enforce modern property and building codes 
based on the latest available reliable risk information, which includes 
potential factors such as sea level rise. The Agency also proactively 
works to expand the number of properties covered by flood insurance and 
all-hazards insurance with the understanding that, both now and in the 
future, any property can flood. In these ways and more, FEMA 
demonstrates its commitment to fostering well-informed pre-disaster 
mitigation efforts throughout the Nation.
    Furthermore, FEMA's All-Hazards Planning construct is a key concept 
of the doctrine and plans that guide FEMA's preparedness and response 
to all disasters including weather relatedevents. Regional All-Hazards 
Plans (AHPs) are written for the most likely response and recovery 
incident-types and effectively support the disaster response concepts 
and contingencies addressed by the National Response Framework (NRF), 
National Disaster Recovery Framework (NDRF), and the Response and 
Recovery Federal Interagency Operations Plans (FIOP). The AHPs provide 
guiding principles communicated to all levels of the organization and 
response community that support the consistent execution of emergency 
disaster response and recovery operations including the stabilization 
of community lifelines and restoration end states.
    Question. Do you think that FEMA's budget request reflects the need 
to respond to the increasing frequency and severity of natural 
disasters?
    Answer. FEMA is committed to preparing for and responding to 
threats and hazards, regardless of the cause. The 2017 and 2018 
hurricane and wildfire season continue to shape the future of FEMA and 
emergency management. By utilizing best practices, adopting new 
responseconcepts, and training all emergency management partners to the 
same standards, we can achieve the goals of building a culture of 
preparedness and readying the nation for catastrophic disasters.

                          SUBCOMMITTTEE RECESS

    Senator Capito. The subcommittee stands in recess.
    [Whereupon, at 10:50 a.m., Wednesday, April 3 the 
subcommittee was recessed, to reconvene at a time subject to 
call of the Chair.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
